<html>
<title> - JOINT HEARING ON SUPPLEMENTAL REQUEST FOR PLAN COLOMBIA</title>
<body><pre>[Senate Hearing 106-621]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-621

        JOINT HEARING ON SUPPLEMENTAL REQUEST FOR PLAN COLOMBIA

=======================================================================

                             JOINT HEARING

                               before the

  SUBCOMMITTEES ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED 
              PROGRAMS; DEFENSE; AND MILITARY CONSTRUCTION

                      COMMITTEE ON APPROPRIATIONS

                                  and

         SPECIAL COMMITTEE ON THE YEAR 2000 TECHNOLOGY PROBLEM
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
63-941 cc                    WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




                     deg.COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

   Subcommittee on Foreign Operations, Export Financing, and Related 
                                Programs

                  MITCH McCONNELL, Kentucky, Chairman
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
RICHARD C. SHELBY, Alabama           FRANK R. LAUTENBERG, New Jersey
ROBERT F. BENNETT, Utah              TOM HARKIN, Iowa
BEN NIGHTHORSE CAMPBELL, Colorado    BARBARA A. MIKULSKI, Maryland
CHRISTOPHER S. BOND, Missouri        PATTY MURRAY, Washington
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
  (ex officio)                         (ex officio)

                           Professional Staff

                            Robin Cleveland
                           Jennifer Chartrand
                         Tim Rieser (Minority)
                        Subcommittee on Defense

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            DANIEL K. INOUYE, Hawaii
ARLEN SPECTER, Pennsylvania          ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         ROBERT C. BYRD, West Virginia
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            BYRON L. DORGAN, North Dakota
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois

                           Professional Staff

                           Steven J. Cortese
                              Sid Ashworth
                              Susan Hogan
                               Gary Reese
                             John J. Young
                              Tom Hawkins
                             Kraig Siracuse
                            Robert J. Henke
                            Mazie R. Mattson
                       Charles J. Houy (Minority)

                         Administrative Support

                             Candice Rogers
                         Sonia King (Minority)
                                 ------                                

                 Subcommittee on Military Construction

                     CONRAD BURNS, Montana Chairman
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   HARRY REID, Nevada
JON KYL, Arizona                     DANIEL K. INOUYE, Hawaii
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
  (ex officio)                         (ex officio)

                           Professional Staff
                              Sid Ashworth
                       Christina Evans (Minority)

                         Administrative Support
                            Mazie R. Mattson
                     Sonia King (Minority)<greek-l>
                           deg.C O N T E N T S

                              ----------                              

                          DEPARTMENT OF STATE

                                                                   Page

Statement of Thomas Pickering, Under Secretary of State..........     1
Opening statement of Hon. Mitch McConnell........................     1
    Prepared statement...........................................     3
Statement of Senator Patrick J. Leahy............................     4
    Prepared statement...........................................     6
Statement of Senator Ted Stevens.................................     6
    Prepared statement...........................................     7
Statement of Senator Arlen Specter...............................     8
Statement of Senator Dianne Feinstein............................     9
Statement of Senator Conrad Burns................................    10
Prepared statement of Senator Frank R. Lautenberg................    11
Prepared statement of Ambassador Thomas R. Pickering.............    16

                         DEPARTMENT OF DEFENSE

Statement of Gen. Charles Wilhelm, Commander in Chief, U.S. 
  Southern Command...............................................    21
Counternarcotics battalion.......................................    21
Action plan......................................................    22
Helicopters......................................................    22
Forward operating locations......................................    22
Paramilitaries...................................................    26
Colombia's strategy..............................................    27
Human rights.....................................................    29
Bachilleres......................................................    30
UH-60s...........................................................    31
Vietnam..........................................................    32
Colombian pilots.................................................    33
Additional committee questions...................................    34
Questions submitted by Senator Frank R. Lautenberg...............    34
Questions submitted to Gen. Charles Wilhelm......................    35
Questions submitted by Senator Daniel K. Inouye..................    35
    Forward operating locations..................................    35
    Support to Colombia..........................................    36
    Military counterdrug efforts.................................    36
Questions submitted by Senator Frank R. Lautenberg...............    37
    Military effectiveness against guerrillas....................    37
    Plan Colombia funding allocations............................    37
    Plan Colombia helicopter assistance..........................    37
Questions submitted by Senator Dianne Feinstein..................    37
    FARC control.................................................    37
    Eradication in FARC areas....................................    38
    Colombian drug trade.........................................    38
    Alternative production.......................................    39
    Human rights abuses in Colombia..............................    39
    Fourth Brigade...............................................    39
    Coca production in Colombia..................................    40
    Air interdiction efforts.....................................    40

                       NONDEPARTMENTAL WITNESSES

Statement of Ambassador Luis Alberto Moreno, Colombian Ambassador 
  to the United States...........................................    43
    Prepared statement...........................................    45
Proposal for the increase of financial aid from the U.S. 
  Government to Ecuador in the fight against drugs...............    51
Statement of Dr. Ramon Jimenez, Attorney General for Ecuador.....    56
Statement of Oswaldo Antezana, Minister of Agriculture for 
  Bolivia........................................................    58
Dignity plan supplemental assistance funding request.............    60
Statement of Robin Kirk, Americas Division, Human Rights Watch...    64
    Prepared statement......................................69<greek-l>

                               (iii) deg.

 
        JOINT HEARING ON SUPPLEMENTAL REQUEST FOR PLAN COLOMBIA

                              ----------                              


                      THURSDAY, FEBRUARY 24, 2000

        U.S. Senate, Subcommittee on Foreign Operations, 
            Export Financing, and Related Programs, 
            Subcommittee on Defense, and Subcommittee on 
            Military Construction, Committee on 
            Appropriations,
                                                    Washington, DC.
    The subcommittees met at 10:36 a.m., in room SD-192, 
Dirksen Senate Office Building, Hon. Mitch McConnell (chairman 
of the Subcommittee on Foreign Operations, Export Financing, 
and Related Programs) presiding.
    Present: Senators Stevens, Specter, Domenici, McConnell, 
Gregg, Burns, Reid, Bennett, Inouye, Leahy, Lautenberg, and 
Feinstein.

                          DEPARTMENT OF STATE

STATEMENT OF THOMAS PICKERING, UNDER SECRETARY OF STATE


               opening statement of hon. mitch mc connell


    Senator McConnell. The hearing will come to order. We are 
pleased to have with us the Chairman of the Full Committee, 
Senator Stevens.
    And I do not know, Senator, whether you have any statements 
you would like to make.
    Senator Stevens. Well, I know you have an opening 
statement. I would say, just for the record, that this proposal 
that is before us from the Administration affects three of our 
subcommittees, Foreign Operations, Defense and--and Military 
Construction.
    I believe that--that as chairman of the Subcommittee on 
Foreign Operations, Senator McConnell should chair this and--
and make the basic recommendations. But the other--members of 
the other subcommittees will be joining us too, Senator.
    This is a very important subject. I think probably the most 
important subject we are going to deal with in the first part 
of this year.
    I do have a statement after you finish yours. But I--I want 
to wait for your comments.
    Senator McConnell. OK. Thank you, Senator Stevens.
    Welcome, gentlemen. When I traveled to--to Colombia, Peru 
and Ecuador to examine U.S. support for regional 
counternarcotics programs, I was taught essentially four 
lessons.
    One, there is no substitute for aggressive political 
leadership in Colombia, Peru, Bolivia and Ecuador.
    Two, drug lords, guerrillas, and the paramilitaries are all 
profiting and part of the same problem. Our narco-security 
strategy must reflect that fact.
    Third, containing one country only shifts the problem 
elsewhere. We need a regional strategy.
    And, fourth, while it seems the most obvious, it seems the 
least observed, the American public must be told the truth 
about what lies ahead.
    I am not convinced that the Administration has learned 
these lessons or can pass this test.
    To determine how we proceed, I think it is worth taking a 
look around the region to consider what has worked.
    While the Administration likes to claim credit for Peru's 
success, the truth is they succeeded largely on their own. The 
United States suspended all assistance in 1991 and 1992. 
Nonetheless, President Fujimori launched an aggressive broad 
scale assault on both the traffickers and the guerrillas 
protecting their trade.
    I doubt anyone would be calling Peru a success today if 
traffickers were in jail, but the Sendero Luminoso had stepped 
in to take their place.
    Critics argue that Peru's success came at a very high human 
rights price. As a result, many now argue that we--we must 
carefully concentrate only on the Colombian drug war and avoid 
any involvement or support of efforts which target the 
paramilitaries or guerrillas. Hence, we must not step up 
military training, support or presence of U.S. troops.
    I am already hearing soothing Administration reassurances 
that Plan Colombia is a counternarcotics effort and we need not 
worry about the quagmire of a counter-insurgency or military 
campaign.
    Now, what exactly does this mean? What is the 
Administration really promising in Plan Colombia?
    It seems to me it is more, much more of the same thing we 
have been doing already. For several years, we have provided 
substantial support to the Colombia narcotics police (CNP) in 
their attack on coca crops and cartel.
    While the CNP deserves credit for arresting kingpins and 
shutting down trafficking routes, coca growth and cocaine 
production, as we know, have exploded. The more the 
Administration spends in Colombia, the more coca is grown.
    Now, we plan to offer more of the same support, but this 
time to the Colombia Army. We will train two counternarcotics 
battalions and provide counternarcotics helicopter gunships and 
weapons, all the while keeping a comfortable public distance 
from targeting the other two major threats to Colombia and our 
interests.
    If it has not worked so far, why will it now? I guess what 
I really want to say is: Who are we kidding? Our strategy will 
have to change to succeed. We cannot pretend the Revolutionary 
Armed Forces of Colombia (FARC) and the National Liberation 
Army (ELN) are not tied to traffickers.
    We cannot argue that a push into Southern Colombia will 
reduce drug production, as long as there is a policy of 
allowing the FARC and traffickers safe haven in a demilitarized 
zone (DMZ) the size of Switzerland.
    We cannot ignore the increase in paramilitary involvement 
in the drug trade. These are the same extremists with close 
ties to Colombian military, which we plan to train.
    If the Colombian government meets the test and demonstrates 
political will, the Administration should acknowledge that we 
are prepared to do whatever it takes to support a serious 
effort that goes after the entire problem, traffickers, 
guerrillas and paramilitaries.
    If we are not really committed, if we are uncertain about 
how involved we want to become, if we question the risks and 
are not confident of the results, we should quit now and save 
our $1.6 billion.
    If we proceed, the public deserves to know that we cannot 
succeed overnight. In fact, I believe we will be well past this 
election year before we can expect any results whatsoever. Not 
only should we avoid a half-hearted effort in Colombia, we 
should avoid a half-baked strategy in the region. The emphasis 
on Colombia must not overshadow requirements in Bolivia, 
Ecuador and Peru. Without a regional strategy, an attack on 
production in one country will only push the problem over to 
another country.
    Bolivia is a good case in point. In a few short years, the 
new government has executed a determined and effective effort 
to eradicate coca and substitute alternative crops. But 
recently when the vice president was in town, he made it clear 
that the job was not yet done.
    Any pressure on Colombia risks a resurgence in Bolivia, if 
alternative development, alternative opportunities are not 
better funded.
    We have invited leaders from Bolivia, Ecuador and Peru to 
address their national needs. I do not view this as a choice 
between support for Colombia or her neighbors. Each has 
important interest. All have a common stake in success.
    It is disappointing that the Administration's request does 
not support an approach which makes Colombia the anchor but 
recognizes that this is a broader--broader partnership.
    I would hope this hearing achieves a consensus so that we 
can correct that course.
    [The statement follows:]
             Prepared Statement of Senator Mitch McConnell
    When I traveled to Colombia, Peru and Ecuador to examine U.S. 
support for regional counter-narcotics programs, I was taught four 
lessons: (1) There is no substitute for aggressive political leadership 
in Colombia, Peru, Bolivia or Ecuador; (2) Drug lords, guerrillas, and 
the paramilitaries are all profiting and part of the same problem--our 
narco-security strategy must reflect that fact; (3) Containing one 
country, only shifts the problem elsewhere--we need a regional 
strategy; and the fourth lesson, while most obvious, seems least 
observed, (4) The American public must be told the truth about what 
lies ahead.
    I am not convinced that the Administration has learned these 
lessons or can pass this test.
    To determine how we proceed, I think it is worth taking a look 
around the region to consider what's worked. While the Administration 
likes to claim credit for Peru's success, the truth is they succeeded 
alone. The U.S. suspended all assistance in 1991 and 1992. Nonetheless, 
President Fujimori launched an aggressive, broad scale assault on both 
the traffickers and the guerrillas protecting their trade. I doubt 
anyone would be calling Peru a success today if traffickers were in 
jail, but the Sendero Luminoso had stepped in to take their place.
    Critics argue that Peru's success came at a very high human rights 
price. As a result, many now argue that we must carefully concentrate 
only on the Colombian drug war and avoid any involvement or support of 
efforts which target the paramilitaries or guerrillas. Hence, we must 
not step up military training, support or the presence of U.S. troops. 
I am already hearing soothing Administration reassurances that Plan 
Colombia is a counter-narcotics effort, and we need not worry about the 
quagmire of a counterinsurgency or military campaign.
    What exactly does this mean? What is the Administration really 
promising in Plan Colombia. It seems to me it's more--much more--of the 
same thing we have been doing. For several years, we have provided 
substantial support to the Colombian Narcotics Police in their attack 
on coca crops and cartels. While the CNP deserves credit for arresting 
king pins and shutting down trafficking routes, coca growth and cocaine 
production have exploded.
    The more the Administration spends in Colombia, the more coca is 
grown.
    Now, we plan to offer more of the same support, but this time to 
the Colombian Army. We will train two counter-narcotics battalions and 
provide counter-narcotics helicopter gun-ships and weapons, all the 
while keeping a comfortable public distance from targeting the other 
two major threats to Colombia and our interests.
    If it hasn't worked so far, why will it now? I guess what I really 
want to say is: Who are you kidding?
    Our strategy will have to change to succeed. We can't pretend the 
FARC and ELN are not tied to traffickers. We can't argue that a push 
into Southern Colombia will reduce drug production, as long as there is 
a policy of allowing the FARC and traffickers safe haven in a DMZ the 
size of Switzerland. We can't ignore the increase in paramilitary 
involvement in the drug trade. These are the same extremists with close 
ties to Colombian military which we plan to train.
    If the Colombian government meets the test and demonstrates 
political will, the Administration should acknowledge that we are 
prepared to do whatever it takes to support a serious effort that goes 
after the whole problem: traffickers, guerrillas and paramilitaries. If 
we are not really committed if we are uncertain about how involved we 
want to become if we question the risks and are not confident of the 
results we should quit now and save our $1.6 billion.
    If we proceed, the public deserves to know that we can not succeed 
over night--in fact, I believe we will be well past this election year 
before we can expect any results.
    Not only should we avoid a half-hearted effort in Colombia, we 
should avoid a half-baked strategy in the region. The emphasis on 
Colombia must not overshadow requirements in Bolivia, Ecuador and Peru. 
Without a regional strategy, an attack on production in one country 
will only push the problem elsewhere.
    Bolivia is a good case in point. In a few short years, the new 
government has executed a determined and effective effort to eradicate 
coca and substitute alternative crops. But, recently, when the Vice 
President was in town, he made clear that the job was not done. Any 
pressure on Colombia risks a resurgence in Bolivia if alternative 
development opportunities are not better funded.
    We have invited leaders from Bolivia, Ecuador and Peru to address 
their national needs. I do not view this as a choice between support 
for Colombia or her neighbors each has important interests--all have a 
common stake in success. It is disappointing that the Administration's 
request does not support an approach which makes Colombia the anchor, 
but recognizes that this is a broader partnership.
    I would hope that this hearing achieves a consensus so that we can 
correct that course.

    Senator McConnell. And with that, let me call on my friend 
and colleague, Pat Leahy, the ranking member.

                 STATEMENT OF Senator PATrick J. LEAHY

    Senator Leahy. Thank you very much, Mr. Chairman.
    Every 6 or 8 years, whichever Administration occupies the 
White House, they propose to dramatically increase military aid 
to fight drugs in South America.
    Each time, Congress is presented with wildly optimistic 
predictions. We do not get very many facts with which to make 
informed decisions. Each time, though, we do respond. We 
appropriate billions of dollars. But the flow of illegal drugs 
just continues unabated and even increases.
    I recognize the great challenges facing Colombia today. I 
have talked a number of times with the Ambassador from Colombia 
and also with President Pastrana. I think they make some 
persuasive arguments.
    There is no dispute that the 40-year civil war and the 
violence and the corruption associated with the drug trade has 
inflicted a terrible toll on that country. I agree with the 
Administration and many in Congress that the United States 
should try to help.
    But I have very serious doubts about the Administration's 
approach. They predict that by building up the Colombian Army 
and eradicating more coca, the guerrillas' source of income 
will dry up and they will negotiate peace.
    I suggest that it is just as likely that it will lead to a 
wider war, more innocent people killed, more refugees uprooted 
from their homes, and no appreciable change in the flow of 
cocaine into the United States.
    The Administration has requested $1.6 billion over 2 years. 
Seventy-nine percent of that is for the Colombian Armed Forces. 
This is an institution that has a sordid record of human rights 
violations, corruption and even involvement in drug 
trafficking.
    Today, while the Army's direct involvement in human rights 
violations has fallen sharply--I give them credit for that--
there is abundant evidence that some in the Army regularly 
conspire with paramilitary death squads who, like the 
guerrillas, are also involved in drug trafficking.
    So I cannot support this military aid without strict 
conditions to ensure that military personnel who violate human 
rights or who aid or abet the paramilitaries are prosecuted in 
the civilian courts. The Colombia military courts have shown 
time and again that they are unwilling to punish their own. The 
Administration's proposal is for 2 years. Yet it is going to be 
at least that long before most of the equipment even gets to 
Colombia and that people are trained to use it.
    The Colombia government cannot possibly afford to maintain 
this equipment, most of which is sophisticated aircraft, so we 
can assume that this is only a down payment on a far longer, 
far more costly commitment.
    And like every previous Administration, this proposal comes 
with only the vaguest of justification. Nothing in the 
materials I have seen describes the Administration's goals with 
any specificity, what they expect to achieve in what period of 
time, at what cost, and what the risks are to civilians caught 
in the middle when the war intensifies, or for that matter, to 
our own military advisors.
    So in that regard, Mr. Chairman, I am glad that two of the 
witnesses we have here are General Wilhelm and Ambassador 
Pickering.
    Ambassador Pickering has been a friend and advisor to me 
for many years. General Wilhelm is one of the most respected 
military leaders that I have had the privilege to deal with in 
my 25 years here.
    So I look forward to what they have to say, but I must say, 
Mr. Chairman, that I am a skeptic.
    Senator McConnell. Thank you, Senator Leahy.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    Every six or eight years, the administration that occupies 
the White House at the time proposes to dramatically increase 
military aid to fight drugs in South America.
    Each time, the Congress is presented with wildly optimistic 
predictions, but few facts with which to make informed 
decisions. Each time, we respond by appropriating billions of 
dollars, but the flow of illegal drugs into the United States 
is unchanged.
    I recognize the great challenges facing Colombia today. 
There is no dispute that a 40 year civil war and the violence 
and corruption associated with the drug trade have inflicted a 
terrible toll on that country.
    I agree with the Administration, and many in Congress, that 
the United States should try to help.
    But I have serious doubts about the Administration's 
approach. Today's prediction is that by building up the 
Colombian Army and eradicating more coca, the guerrillas' 
source of income will dry up, and they will negotiate peace.
    It is just as likely that it will lead to a wider war, more 
innocent people killed, more refugees uprooted from their 
homes, and no appreciable change in the flow of cocaine into 
the United States.
    The Administration has requested $1.6 billion over two 
years, 79 percent of which is for the Colombian Armed Forces, 
an institution that has a sordid record of human rights 
violations, corruption, and involvement in drug trafficking.
    Today, while the Army's direct involvement in human rights 
violations has fallen sharply, there is abundant evidence that 
Army personnel regularly conspire with paramilitary death 
squads, who like the guerrillas are also involved in drug 
trafficking.
    I cannot support this military aid without strict 
conditions to ensure that military personnel who violate human 
rights or who aid or abet the paramilitaries are prosecuted in 
the civilian courts. The Colombian military courts have shown 
time and again that they are unwilling to punish their own.
    The Administration's proposal is for two years, yet it will 
be that long before most of the equipment even gets to Colombia 
and their people are trained to use it.
    The Colombian Government cannot possibly afford to maintain 
this equipment, most of which is sophisticated aircraft, so 
this is a down-payment on a far longer, far more costly 
commitment.
    Like every previous administration, this proposal contains 
only the vaguest justification.
    Nothing in the materials I have seen describes the 
Administration's goals with any specificity, what they expect 
to achieve in what period of time, at what cost, and what the 
risks are to civilians caught in the middle when the war 
intensifies, or to our own military advisors.
    Maybe General Wilhelm and Ambassador Pickering, two men I 
admire greatly, can give us the details.

    Senator McConnell. Senator Stevens.

                    STATEMENT OF Senator TED STEVENS

    Senator Stevens. Oh, Mr. Chairman, I am going to put my 
statement fully in the record, if you will.
    I--I do want to point out this is a request for emergency 
money. As I said, it covers three subcommittees of our full 
Committee. It is a new initiative. It is a new direct role for 
U.S. military personnel on the ground in Colombia, and it 
involves the establishment of new permanent forward-operating 
locations, effectively bases, in Ecuador, Aruba and Curacao, a 
continued deployment of U.S. military forces at those sites.
    These may be the right steps to take, but they have severe 
consequences. I spent last week with Admiral Barrett at the 
Joint Interagency Task Force East Headquarters to review 
operational intelligence efforts underway to combat the flow of 
drugs from Latin America.
    In addition, I visited Special Operations Command to get 
General Schoomaker's perspective on these efforts. And I look 
forward to hearing from General Wilhelm today.
    Whatever steps we take I think that Senator McConnell is 
right. We must be prepared to address how these efforts will 
impact the neighboring countries of Ecuador, Venezuela, Panama 
and--and Bolivia. It does seem to me that we have some very, 
very serious problems to resolve here in the Committee if we 
are to expect this supplemental to survive on the floor.
    And I do hope you will call on Senator Inouye, and see if 
he has any comment about Defense.
    Senator McConnell. Yes.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    Let me begin by thanking Sen. McConnell for convening this hearing 
to review the supplemental request for expanded counter-drug funding 
for fiscal year 2000. I also want to thank Gen. Wilhelm for appearing 
today, under very short notice.
    The request before the Committee proposes a significant fiscal, 
programmatic and human commitment to working with the government of 
Colombia to combat the growth of cocaine and heroin production and 
distribution.
    This Committee has consistently supported, and added to, funding 
requested for Department of State, Defense and intelligence community 
efforts to fight the war on drugs.
    This request comes to the Committee as an emergency increase for 
fiscal 2000. Our hearing today will identify how these funds would be 
spent, and the long term implications of this policy.
    In particular, this initiative envisions a new, direct role for 
U.S. military personnel on the ground in Colombia, to train and assist 
Colombian Army units in their combat role in fighting the counter-
narcotics forces in Colombia.
    This initiative accelerates the establishment of new, permanent 
forward operating locations, effectively bases, in Ecuador, Aruba and 
Curacao, and the continuous deployment of U.S. military forces to 
operate from these sites.
    These may be exactly the right steps to take--but they will have 
consequences.
    Last week, I met with Adm. Barrett at the Joint Interagency Task 
Force East headquarters, to review the operational and intelligence 
efforts underway to combat the flow of drugs from Latin America. In 
addition, I visited the Special Operations Command, to get Gen. 
Skoomaker's perspective on these efforts.
    I look forward to hearing Gen. Wilhelm's perspective on these 
matters today.
    Whatever steps we take to increase the pressure on drug activity in 
Colombia, we must be prepared to address how these efforts will impact 
the neighboring countries of Ecuador, Venezuela and Panama.
    We need to understand the commitment of the government of Colombia 
this program--our Committee heard from President Pastrana last month, 
and I believe we were all impressed by his personal determination.
    Finally, we must decide how we will pay for this effort--not 
contemplated in the bills we completed just 3 months ago, but now 
before the Committee as an urgent, emergency priority.

    Senator McConnell. Senator Inouye, do you--Senator Burns.
    Staff. He is not----
    Senator McConnell. OK.
    Senator Specter.
    Senator Specter. Thank you very much, Mr. Chairman.
    Senator Burns. I am not about to step in front of a senior 
Senator.
    Senator McConnell. Well, I was calling on you because you 
are the Chairman of the Military Construction Subcommittee. We 
were going to get----
    Senator Burns. Oh, OK. My--my statement will be very short. 
Go ahead.
    Senator McConnell. Go ahead, Senator Specter.
    Senator Specter. So will mine, providing it gets started.

                   STATEMENT OF Senator ARLEN SPECTER

    Senator Specter. I want to make just a few comments about 
the issue of the impact on the drug problem in the United 
States.
    I have visited Peru, Ecuador, Venezuela, and Colombia on a 
number of occasions over the past decade and a half and have 
seen our efforts and co-sponsored the legislation to bring the 
military in, but all of the expenditures which have looked to 
try to cut down the supply of drugs from Latin America have 
been notably unsuccessful.
    When there is an effort made to curtail the supply coming 
out of a country like Colombia, it is like pushing air in a 
balloon. It goes to Peru or to Venezuela or to Ecuador or to 
some other country.
    When I look at $1.6 billion on an emergency supplemental, 
given the problems that we have in looking at our funding for 
next year when we are now in the budget process, it seems to me 
there has to be a very direct connection to our national 
interest.
    And I am concerned about the stability of Colombia. And I 
had a chance recently to visit President Pastrana in December 
and have talked at length with Ambassador Moreno, and applaud 
what they are doing. And it is a big advance since the Supreme 
Court Chambers were attacked by the guerrillas not too long ago 
in Colombia.
    But when you take a look at what will the impact on the use 
of drugs and the tremendous problems we have in this country, I 
want to candidly express my concern over this kind of an 
expenditure.
    We spent $18 billion a year on the drug problem. And $12 
billion of that is spent on fighting drugs on supply coming 
into this country, and street crime, which I used to 
participate in when I was district attorney of Philadelphia.
    And we spend $6 billion on demand on education and 
rehabilitation. And I have long thought that we ought to be 
spending more on the demand side, at least a 50/50 split in 
terms of a long-range solution.
    So that before I am authorized to cast my vote for $1.6 
billion, I want to see some direct effect on the serious 
problems of drugs in the United States. That is an aspect that 
concerns me first and foremost.
    I am also concerned about the Colombian Army and I am also 
concerned about the U.S. commitment.
    And we have two very expert witnesses here in 
Undersecretary Pickering, with whom we have all worked for many 
years, and General Wilhelm. So I am prepared to listen but, 
candidly, it is a high hurdle.
    Thank you, Mr. Chairman.
    Senator McConnell. Thank you, Senator Specter.
    Any of our colleagues on this side have an opening 
statement?
    Senator Feinstein.

                 STATEMENT OF Senator DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman. I am 
not a member of the subcommittee. I am a member of the general 
Committee.
    I have worked with Senator Coverdell on the drug issues for 
a substantial period of time. I come from a state heavily 
impacted. And I have met with the former Defense Minister of 
Colombia. And Senator Stevens was good enough to provide an 
opportunity for us to meet with President Pastrana.
    I do not believe there are any good options. Of course, we 
have got to fight drugs on both the demand side and the supply 
side. However, we provide money to local jurisdictions on the 
demand side to provide prevention treatment, education.
    The Federal Government itself does not do that. Our total 
responsibility is to maintain our borders, to provide Federal 
law enforcement and to interdict.
    The former defense minister pointed out to me how 30 to 40 
percent of the land mass of Colombia is today controlled by 
narcoterrorists; how 1,500 citizens are held as hostages; 250 
military, 250 soldiers.
    Eighty percent of the cocaine is grown in Colombia, is 
transported via, for the most part, Mexican cartels into this 
country. And I am one that believes something has to be done, 
that--that we have to provide the kind of aid to an ally who 
has been a stalwart ally of this country, to a president who is 
doing his utmost to prevent human rights abuses; to change a 
pattern of corruption; and to stand tall in a situation in 
which it is very difficult to stand tall.
    Everyone runs. And you cannot countenance running, and face 
these cartels and narcoterrorists. They understand one thing.
    More pronouncedly, what is happening on the borders of this 
country, the Southwest border, is the spread of the corruption 
from the Southwest through the border into the United States.
    With customs agents, with local public officials, the money 
for bribes is so enormous and I happen to believe that it is 
within our national interest to be helpful. It is not within 
our national interest to see the drug cartels and the narco-
terrorists penetrate this country. And believe me, they will 
and they are trying now.
    So I have very strong feelings on this issue. And I have a 
very strong belief that the Federal Government's responsibility 
is enforcement, is forward placement, and is to stop this 
development.
    The cartels are more sophisticated than they have ever been 
before.
    Our intelligence intercepts are down because they utilize 
highly encrypted computer systems. They have the most updated 
military equipment. And they are on a march.
    Now, we either sit back and let this march take place 
because we are worried that there is not a 100 percent 
guarantee of success, or we are willing to play a role to back 
an ally that wants to be helpful; and the victims are right 
here on our side of the border.
    So I am in support of this. I feel very strongly that Mr. 
Pickering and the General will hopefully provide as much 
guarantee of success as they possibly can. And I--I am one that 
recognizes there is no guarantee.
    But I do think that the national interest is a clear one, 
that when you have arrests as we have had called busts, in the 
colloquial, of 5 tons of cocaine, this is brought in by Mexican 
cartels, produced in Colombia, and these arrests are 
commonplace, that we have a huge problem.
    And the supply is so great, the street price is dropping 
and continues to drop. And I agree, we must fight it on the 
demand side. I am certainly happy to do that. Some programs 
work. And some programs do not.
    But we also have to make it extraordinarily difficult and 
prevent its admission to this country, and so I am in support 
of this effort, and I look forward to hearing the particulars.
    Thank you, Mr. Chairman.
    Senator McConnell. Thank you, Senator Feinstein.
    Let me--normally, when it is just a hearing of our 
subcommittee, Senator Leahy and I restrict opening statements 
just to the Chairman and the ranking member.
    I am--since we have several different subcommittees today, 
we are being a little looser, but let me just remind everybody 
that anybody who--who does not feel the need to make an opening 
statement, that would not be frowned upon. And we do have a 
long list of witnesses.
    Senator Burns.

                   STATEMENT OF Senator CONRAD BURNS

    Senator Burns. Thank you very much, Mr. Chairman, I will 
try to stay in my two-minute confine.
    Ambassador Pickering and General Wilhelm, nice to see you, 
and thank you for coming today.
    Just a short statement, I chair the Military Construction 
Subcommittee and we have been asked to provide some of the 
infrastructure that they will need in their forward 
positioning.
    I would have to say that as we move this along that we 
could sit down privately and talk about the situation and if it 
is well thought out, if it gets us to our mission, keeping in 
mind that I have some very serious reservations as the role of 
the military plays in this situation with drugs.
    I think the role of the military is much different in this 
country than what it is being asked to do. I would hope that we 
could sit down and just visit about that because we are going 
to make a sizeable investment in our areas down there.
    And with the drug situation, we are going--always going to 
have this drug situation in this country, folks, because we can 
buy--we have the money to buy the darn stuff.
    That is our biggest problem, so how do we combat that? What 
we are trying to do down there and the infrastructure we will 
need in order to--to carry out your mission.
    And Semper Fi, General.
    Senator McConnell. Thank you, Senator Burns.
    Does anyone else feel moved to make a statement on the 
Democratic side?
    Senator Inouye. Well, we feel moved, but we will respond to 
our kinder instincts and----
    Senator McConnell. Great.
    Anyone else on the Republican side feel moved to--to make 
an opening?
    Senator Domenici. I am also moved, but I am going to pass 
on it.
    Senator McConnell. Thank you. We will be happy to make any 
opening statements a part of the record.
    [The statement follows:]

           Prepared Statement of Senator Frank R. Lautenberg

    Mr. Chairman, thank you for holding this hearing on a 
subject of critical importance: how the United States can work 
with and support our partners in Latin America in our common 
fight against the scourge of illegal drugs.
    We will soon consider emergency supplemental funding for 
Assistance to Plan Colombia. The President has made this a high 
priority, requesting this funding within a responsible Budget 
which pays down America's debt.
    I would like to commend President Pastrana for developing a 
national strategy to free Colombia of the production and 
trafficking of drugs so he can reunify a country torn by 
decades of fighting. While he has asked the United States and 
other allies to help, Colombia itself will bear most of the 
cost to implement Plan Colombia. This comprehensive strategy 
includes the peace process, to bring leftist forces back into 
the political process; a forceful counter-drug strategy; reform 
of the justice system and protection of human rights, and 
democratization and social development.
    For these reasons, I would be inclined to support rapid 
American assistance to help Colombia bring this strategy to 
fruition.
    However, I have serious concerns and questions which I 
believe must first be addressed. I discussed some of these 
issues with Ambassador Moreno yesterday, and I will raise some 
of these questions here today.
    The Pastrana Government has made important strides in 
improving respect for human rights, not least by Columbia's 
military. Columbia must follow through by prosecuting military 
officers accused of extra-judicial killings and other crimes in 
civilian courts. Firm action must be taken to investigate and 
prosecute crimes carried out by paramilitary groups, which seem 
to have taken on some of the military's ``dirty work.'' In 
short, more needs to be done to protect human rights.
    I also wonder whether a counter-drug strategy that relies 
on fighting insurgents in the jungle is likely to succeed, or 
whether it might make more sense to first focus on interdiction 
efforts to cordon off drug-producing areas. I'm also not sure I 
understand how military counter-narcotics operations in 
southern Columbia can be separated from the political fight 
against leftist rebels with whom President Pastrana says he 
would like to negotiate.
    While Columbia's national commitment to the counter-drug 
effort is welcome, we also need to ensure that our support is 
part of a regional approach, so we do more than just move drug 
production and trafficking elsewhere in the region. And we need 
to ensure that alternative development programs are 
economically and environmentally sustainable, so we create a 
real future for those willing to give up producing drugs.
    Finally, and perhaps most importantly, I'm not sure we're 
doing enough here at home to reduce the demand for drugs. In 
particular, we need to ensure that everyone who wants help to 
escape drug addiction can get into a treatment program, and 
help educate our youth to stay free of drugs. Otherwise, our 
efforts in Latin America run the risk of simply raising the 
price addicts pay for drugs.
    I look forward to hearing from Under Secretary Pickering 
and General Wilhelm and Ambassador Moreno and our other 
witnesses so we can better understand how to use our resources 
effectively in a joint effort to free our hemisphere from the 
scourge of drugs.
    Thank you, Mr. Chairman.

    Senator McConnell. And, gentlemen, why do you not proceed?
    Mr. Ambassador, are you leading off?
    Ambassador Pickering. I am, Mr. Chairman. And thank you 
very much. I have a statement for the record.
    Senator McConnell. We will make it part of the record.
    Ambassador Pickering. And I will try to deliver a summary 
of the important parts of the remarks that I have prepared.
    Let me begin by saying I was very appreciative of your 
statement of the four McConnell principles on dealing with 
drugs.
    I think that they both inform and energize the kinds of 
approaches that we can take. And I think that they represent a 
potentially very strong bipartisan consensus on how to deal 
with this problem.
    Mr. Chairman, members of the Committee, I appreciate the 
opportunity today to discuss the U.S. Government assistance for 
Plan Colombia. I know that we are all concerned about the 
ramifications of the situation in Colombia and its impact on 
the United States.
    The importance of fighting the scourge of illegal drugs as 
we have just heard from you is an issue on which we can all 
agree. The cost is of, on an annual basis, 52,000 dead and $110 
billion each year due to the health costs, accidental costs, 
lost time and so on. If my historical recollection is correct, 
these are the numbers respectively that we lost in Vietnam and 
Korea.
    These are a huge toll. And 75 percent to 80 percent of the 
cocaine in that terrible cocktail comes from----
    Senator Reid. Mr. Chairman----
    Ambassador Pickering (continuing). From Colombia.
    Senator Reid. Mr. Chairman--Mr. Chairman.
    Would you explain the 52,000?
    Ambassador Pickering. My testimony says that we had--the 
cost to our society is 52,000 dead and nearly $110 billion each 
year. The $110 billion is each year. The 52,000 dead, I think, 
is a cumulative total.
    Senator Reid. 52,000 who died from drug use----
    Ambassador Pickering. Exactly.
    Senator Reid (continuing). Or is that in the war against 
drugs?
    Ambassador Pickering. No. It is the people impacted by--by 
the--by the drugs in this country. That is the death toll.
    General Wilhelm. Drug-related violence.
    Ambassador Pickering. Yes. Drug-related violence----
    General Wilhelm. Overdoses.
    Ambassador Pickering (continuing). Overdoses, all causes, 
but related to drugs.
    Senator Reid. Thank you, Mr. Chairman, and thank you, Mr. 
Ambassador.
    Ambassador Pickering. Although narcotics remain the key in 
our assistance to Colombia, strengthening the economy and 
Colombia institutions and supporting the peace process will 
also help to bring about an objective of stability to the 
entire region and aid in the struggle against narcotics. I am 
grateful, Mr. Chairman, for the support of the Congress on this 
issue.
    Our approach to Colombia can be one of the best examples of 
what might be achieved when there is a bipartisan consensus on 
pursuing our national interests abroad. I thank you all for 
that consideration.
    We are fortunate, as we have just heard, to be working with 
President Pastrana and his Administration. After the terrible 
relations with the Samper Administration, President Pastrana's 
tenure offers the United States and the rest of the 
international community a golden opportunity to work with 
Colombia in confronting these threats.
    President Pastrana's commitment to achieve peace is 
indisputable. He has also demonstrated his willingness to root 
out narcotics trafficking while remaining firmly committed to 
democratic values and principles.
    Colombia is currently enduring a critical societal, 
national security and economic series of problems that stem in 
great part from the drug trade and the internal conflict which 
is financed by that trade.
    This situation has limited the government of Colombia's 
sovereignty in large parts of the country. These areas have 
been becoming the prime coca and opium poppy producing zones.
    This problem directly affects the United States as drug 
trafficking and abuse cause the enormous social, health and 
financial damage to our communities, which I have just 
described.
    Over 80 percent of the world's supply of cocaine is grown, 
processed or transported through Colombia. The U.S. Drug 
Enforcement Agency estimates that up to 75 percent of the 
heroin consumed on the East Coast of the United States comes 
from Colombia, although Colombia produces less than 3 percent 
of the world's heroin.
    The government of Colombia has taken the initiative to 
confront the challenges it faces. With the development of a 
strategic approach to address its national challenge called 
Plan Colombia, a plan for peace, prosperity and the 
strengthening of the state.
    It is an ambitious, but we believe realistic, package of 
mutually reinforcing integrated policies.
    The plan itself was formulated, drafted and approved in 
Colombia by President Pastrana and his team. Without its 
Colombian origins and its Colombian stamp, it would not have 
the support and commitment of Colombia behind it. Colombian 
ownership and vigorous Colombia implementation are essential to 
the future success of the Plan.
    The U.S. government shares the assessment that an 
integrated, comprehensive approach to Colombia's interlocking 
challenges holds the best promise for success.
    I had the honor of meeting with President Pastrana and his 
team February 13th and 14th in Colombia to discuss 
implementation. We reviewed the--with the Colombians a wide 
array of coordination and implementation issues.
    I believe with Colombia we have launched a process of 
continuous bilateral discussions that will refine and make more 
effective our capacity to contribute to the implementation of 
Colombia's policies.
    Before I describe for you our proposal to assist Plan 
Colombia, I want to remind you that the Plan cannot be 
understood simply in terms of a U.S. contribution.
    Plan Colombia is a $7.5 billion plan over 3 years, which 
President Pastrana has said Colombia will provide $4 billion of 
its scarce resources to support. He called on the international 
community to provide the remaining $3.5 billion.
    In response to this request, the Administration is now 
proposing, and it is before you, a $1.6 billion assistance 
package to Colombia of new monies and current funding for the 
years 2000 and 2001. Our request for new monies includes $954 
million in 2000 in an emergency supplemental and $318 million 
in 2001 funding.
    A significant share of our package will go to reduce the 
supply of drugs to the United States, by assisting the 
government of Colombia in its efforts to limit the production, 
refinement and transportation of cocaine and heroin.
    Building on current funding of over $330 million in fiscal 
year 2000 and 2001, the Administration's proposal includes an 
additional $818 million funded through the international 
affairs programs, the function 150 account, and $137 million 
through defense programs, the 050 function, in 2000; and $256 
million in 150; and $62 million through 050 in fiscal year 
2001.
    We are looking to the European Union and the International 
Financial Institutions to provide additional funding. Already, 
the International Financial Institutions have committed between 
$750 million and $1 billion, which is focused on Plan Colombia 
and its objectives.
    The Departments of State, Defense, Justice and Treasury, as 
well as the Agency for International Development, the Drug 
Enforcement Administration, the Office of National Drug Control 
Policy, all played very major roles in proposing and crafting 
the 2-year support package which is before you. They will play 
an essential role in the inter-agency implementation effort.
    I briefly would like now, Mr. Chairman, to focus on the key 
elements of the plan.
    The first is boosting governing capacity and respect for 
human rights. Here, the Administration proposes funding $93 
million over the next 2 years to fund a series of programs 
under the Agency for International Development and the 
Department of State and Justice to strengthen human rights and 
the administration of justice institutions.
    Expansion of counternarcotics operations into Southern 
Colombia: With this part of the package, the Administration 
proposes to fund $600 million over the next 2 years to help 
train and equip two additional special counternarcotics 
battalions, which will move into Southern Colombia to protect 
Colombian National Police as they carry out their counterdrug 
mission of eradication. The program will provide helicopters, 
training and intelligence support for that activity.
    The third area is alternative economic development. The 
Administration proposal includes new funding of $145 million 
over the next 2 years to provide economic alternatives for 
small farmers, who now grow coca and poppy, and to increase 
local government's ability to respond to the needs of their 
people.
    This is an integral part of the program based on the 
success which has been seen in Bolivia in its integrated 
program of eradicating crops and providing for alternative 
development.
    The fourth area is more aggressive interdiction. Building 
on Peru's success in aerial and riverine and ground-based 
interdiction, enhancing Colombia's ability to interdict air, 
water-borne and road trafficking is essential to decreasing the 
price paid to farmers for coca leaf and to decreasing the 
northward flow of drugs. The Administration proposes to spend 
$340 million on the interdiction programs.
    The fifth element is assistance to the Colombia National 
Police. The Administration proposes an additional funding of 
$96 million over the next 2 years to enhance the Colombia 
National Police's ability to eradicate coca and poppy fields, 
this in addition to the counternarcotics assistance of $158 
million provided to the CNP in fiscal year 1999.
    I would like now to mention just an important aspect of 
what we are dealing with in the human rights dimension. We have 
strongly supported the efforts of President Pastrana and his 
Administration to advance the protection of human rights and to 
prosecute those who abuse them.
    Complicity by elements of Colombia's security forces with 
the right wing militia groups called paramilitaries, remains a 
serious problem.
    Although the government of Colombia has taken important 
steps in holding senior military and police officers 
accountable for participating in human rights violations, we 
believe more must and can be done, however.
    And in my talks with President Pastrana, I had the 
opportunity to emphasize that and he tells me he believes that 
that can be accomplished.
    U.S. assistance to Colombian military and police forces is 
provided strictly in accordance with Section 563 of the Fiscal 
Year 2000 Foreign Operations Appropriations Act, the so-called 
Leahy Amendment.
    No assistance is provided to any unit of the security 
forces for which we have credible evidence of the commission 
and I quote from the act, ``of gross violations of human 
rights,'' unless the Secretary of State is able to certify that 
the government of Colombia has taken effective measures to 
bring those responsible to justice.
    We are firmly committed to the Leahy Amendment and have a 
rigorous process in place to screen those units being 
considered for assistance.
    A word, Mr. Chairman, on the peace process. President 
Pastrana has made bringing an end to Colombia's civil strife 
through a peace agreement with the various insurgent groups a 
central goal of his Administration. He was elected on that 
platform.
    Pastrana believes, and the U.S. Government agrees, that 
ending the civil conflict and eliminating all of that 
conflict's harmful side effects is central to solving 
Colombia's multi-faceted problems.
    Mr. Chairman, distinguished members, the Administration has 
been pleased by the support from both sides of the Congress 
that share our concern for Colombia's future.
    At this moment, Colombia is a partner which shares our 
counternarcotics concerns and possesses the will to execute the 
needed reforms and operations.
    Our challenge is as a neighbor and as a partner. And it is 
to identify the ways in which the U.S. Government can assist 
Colombia in resolving these problems.
    Concerted action now could, over time, stem the illicit 
narcotics flow to the United States. Action now can contribute 
to a peaceful resolution of a half-century of conflict. Action 
now could return Colombia to its rightful historical place as 
one of the hemisphere's strongest democracies.
    Mr. Chairman, with your permission, before I close, I would 
like very briefly to mention two other important supplemental 
requests for which the Administration is seeking funding.
    First, emergency supplemental funds are needed in Southeast 
Europe in Kosovo to support crucial economic and democratic 
reform in the region, promote law and order in Kosovo and 
provide much-needed assistance for the United Nations interim 
mission in Kosovo.
    Secondly, additional funding is also being requested for 
U.S. contributions to the Heavily Indebted Poor Countries Trust 
Fund. Our contribution is an essential component of this 
initiative, to provide necessary debt-relief for the world's 
poorest and most indebted countries.
    The debt relief will enable those recipients to fund 
crucial poverty reduction programs, and I urge the Committee to 
give these requests full and equal consideration with the 
support for Plan Colombia.
    Thank you, Mr. Chairman.

                           prepared statement

    Senator Stevens. Well, thank you very much, Mr. Ambassador. 
I want to make sure everyone understands. Those last two 
requests are not before the Committee this morning.
    [The statement follows:]
          Prepared Statement of Ambassador Thomas R. Pickering
    Mr. Chairman, members of the Committee, I appreciate the 
opportunity today to discuss U.S. Government assistance for Plan 
Colombia. I know that we are all very concerned about the ramifications 
of the situation in Colombia on the United States. The importance of 
fighting the scourge of illegal drugs is an issue on which we can all 
agree. The problems in Colombia affect the lives of Americans at home 
and abroad. Illegal drugs cost our society 52,000 dead and nearly $110 
billion each year due to health costs, accidents, and lost 
productivity. Narcotics also have a corrosive effect on the democratic 
institutions and economies of the region. Although counternarcotics 
remains key in our assistance to Colombia, strengthening the economy 
and institutions and supporting the peace process would help to bring 
stability to the entire region.
    I am very grateful for the support of Congress on this issue. Our 
approach to Colombia is one of the best examples of what can be 
achieved when there is a bipartisan consensus on pursuing American 
interests abroad. I thank you for that.
    We are fortunate to be working with President Pastrana and his 
Administration. After strained relations with the Samper 
Administration, President Pastrana's tenure offers the United States 
and the rest of the international community a golden opportunity to 
work with Colombia in confronting these threats. President Pastrana's 
commitment to achieve peace is indisputable. He has also demonstrated 
his willingness to root out narcotics trafficking while remaining 
firmly committed to democratic values and principles.
    Colombia is currently enduring critical societal, national 
security, and economic problems that stem in large part from the drug 
trade and the internal conflict that it finances. This situation has 
limited the Government of Colombia's sovereignty in large parts of the 
country. These areas have become the prime coca and opium poppy 
producing zones. This problem directly affects the United States as 
drug trafficking and abuse cause enormous social, health and financial 
damage in our communities. Over 80 percent of the world's supply of 
cocaine is grown, processed, or transported through Colombia. The U.S. 
Drug Enforcement Agency estimates that up to 75 percent of the heroin 
consumed on the East Coast of the United States comes from Colombia--
although Colombia produces less than 3 percent of the world's heroin.
    Colombia's national sovereignty is increasingly threatened by well-
armed and ruthless guerrillas, paramilitaries and the narcotrafficking 
interests to which they are inextricably linked. Although the 
Government is not directly at risk, these threats are slowly eroding 
the authority of the central government and depriving it of the ability 
to govern in outlying areas. It is in these lawless areas, where the 
guerrilla groups, paramilitaries and narcotics traffickers flourish, 
that the narcotics industry is finding refuge. As a result, large 
swathes of Colombia are in danger of being narco-districts for the 
production, transportation, processing, and marketing of these 
substances.
    These links between narcotics trafficking and the guerrilla and 
paramilitary movements are well documented. We estimate that the FARC 
now has 7,000-11,000 active members, the ELN between 3,000-6,000, and 
that there are an estimated 5,000-7,000 paramilitary members. They 
participate in this narcotics connection. Much of the recruiting 
success occurs in marginalized rural areas where the groups can offer 
salaries much higher than those paid by legitimate employers. Estimates 
of guerrilla income from narcotics trafficking and other illicit 
activities, such as kidnapping and extortion, are unreliable, but 
clearly exceed $100 million a year, and could be far greater. Of this, 
we estimate some 30-40 percent comes directly from the drug trade. 
Paramilitary groups also have clear ties to important narcotics 
traffickers, and paramilitary leaders have even publicly admitted their 
participation in the drug trade.
    This situation is worsened by the fact the Colombian economy is 
undergoing its first recession in 25 years, and its deepest recession 
of the last 70 years. Real gross domestic product is estimated to have 
fallen by 3.5 percent last year, the result of external shocks, fiscal 
imbalances, and a further weakening of confidences related to stepped 
up activity by insurgent groups. Unemployment has rocketed from under 9 
percent in 1995 to about 20 percent in 1999, adding to the pool of 
unemployed workers who can be drawn into the narcotics trade or into 
insurgent or paramilitary groups. This recession has also sapped the 
Colombian government of resources to address societal and political 
pressures, fight the narcotics trade, or respond to its thirty-five 
year internal conflict.
Plan Colombia
    The Government of Colombia has taken the initiative to confront the 
challenges it faces with the development of a strategic approach to 
address its national challenges. The ``Plan Colombia--Plan for Peace, 
Prosperity, and Strengthening of the State'' is an ambitious, but 
realistic, package of mutually reinforcing policies to revive 
Colombia's battered economy, to strengthen the democratic pillars of 
the society, to promote the peace process and to eliminate 
``sanctuaries'' for narcotics producers and traffickers. The strategy 
combines existing GOC policies with new initiatives to forge an 
integrated approach to resolving Colombia's most pressing national 
challenges.
    The USG consulted closely on the key elements that make up the Plan 
with Colombian leaders and senior officials. It ties together many 
individual approaches and strategies already being pursued in Colombia 
and elsewhere in the region. The Plan itself was formulated, drafted 
and approved in Colombia by President Pastrana and his team. Without 
its Colombian origins and its Colombian stamp, it would not have the 
support and commitment of Colombia behind it. Colombian ownership and 
vigorous GOC implementation are essential to the future success of the 
Plan.
    The USG shares the assessment that an integrated, comprehensive 
approach to Colombia's interlocking challenges holds the best promise 
of success. For example, counternarcotics efforts will be most 
effective when combined with rigorous GOC law enforcement/military 
cooperation, complementary alternative development programs and 
measures to assure human rights accountability. Similarly, promoting 
respect for the rule of law is just as essential for attracting foreign 
investors as it is for securing a durable peace agreement.
    I met with President Pastrana and his Plan Colombia team on 
February 13-14 to discuss the Plan's implementation. To underscore the 
importance of integrated planning, I brought a senior counterpart team 
including Rand Beers, Assistant Secretary Bureau of International 
Narcotics and Law Enforcement Affairs; Harold Koh, Assistant Secretary 
Bureau of Democracy, Human Rights, and Labor; Julia Taft, Assistant 
Secretary Bureau of Population, Refugees, and Migration; Brian 
Sheridan, Assistant Secretary of Defense Special Operations Low 
Intensity Conflicts; Mary Lee Warren, Deputy Assistant for the Attorney 
General; and William Brownfield, Deputy Assistant Secretary Bureau of 
Western Hemisphere Affairs. We reviewed with the Colombians a wide 
array of coordination and implementation issues. I believe we have 
launched a process of continuous bilateral discussions that will refine 
and make more effective our implementation policies.
    Before I describe for you our proposal to assist Plan Colombia, let 
me remind you that the Plan cannot be understood simply in terms of a 
U.S. contribution. Plan Colombia is a $7.5 billion plan of which 
President Pastrana has said Colombia will provide $4 billion of its 
scarce resources. He called on the international community to provide 
the remaining $3.5 billion. In response to this request, the 
Administration is proposing a $1.6 billion assistance package to 
Colombia of new monies and current funding. Our request for new monies 
includes a $954 million fiscal year 2000 emergency supplemental and 
$318 million in fiscal year 2001 funding. A significant share of our 
package will go to reduce the supply of drugs to the United States by 
assisting the Government of Colombia in its efforts to limit the 
production, refinement, and transportation of cocaine and heroin. 
Building on current funding of over $330 million in fiscal year 2000 
and fiscal year 2001, the Administration's proposal includes an 
additional $818 million funded through international affairs programs 
(function 150) and $137 million through defense programs (function 050) 
in fiscal year 2000, and $256 million funded through function 150 and 
$62 million through function 050 in fiscal year 2001. We are looking to 
the European Union and the International Financial Institutions to 
provide additional funding.
    The Departments of State, Defense, Justice, and Treasury, as well 
as the Agency for International Development, the Drug Enforcement 
Administration, and the Office of National Drug Control Policy all 
played major roles in proposing and crafting the Plan Colombia two year 
support package. They will all play essential roles in the interagency 
implementation effort.
    The Administration's proposal for support for Plan Colombia 
addresses the breadth of Colombia's challenges, and will help Colombia 
in its efforts to fight the drug trade, foster peace, increase the rule 
of law, improve human rights, expand economic development, and 
institute justice reform. Much of the assistance for social assistance 
programs will come from the International Financial Institutions (IFI), 
future potential bilateral donors and Colombia's own funds.
    There has been an explosive growth in the coca crop in Putumayo, in 
southern Colombia and, to a lesser extent, in Norte de Santander, in 
the northeast. Putumayo is an area that remains beyond the reach of the 
government's coca eradication operations. Strong guerrilla presence and 
weak state authority have contributed to the lawless situation in the 
Putumayo. As our success in Peru and Bolivia demonstrates, it is 
possible to combat narcotics production in the Andean region. This 
package will aid the Government of Colombia in their plans to launch a 
comprehensive step-by-step effort in Putumayo and Caqueta to counter 
the coca explosion, including eradication, interdiction, and 
alternative development over the next several years.
    The push into drug producing southern Colombia will give greater 
sovereignty over that region to the GOC, allowing the CNP to eradicate 
drug cultivation and destroy cocaine laboratories. Increased 
interdiction will make the entire drug business more dangerous for 
traffickers and less profitable. Meanwhile, funding for Plan Colombia 
will support internally displaced people with emergency relief in the 
short term and will fund alternative economic development to provide 
licit sources of income in the long term. USAID and DOJ will fund 
programs to improve human rights conditions and justice institutions 
giving the Colombian people greater access to the benefits of 
democratic institutions.
    Our counternarcotics package for Colombia was designed with the 
benefit of knowing what has worked in Bolivia and Peru. With USG 
assistance, both countries have been able to reduce dramatically coca 
production. This was achieved through successful efforts to re-
establish government control and bring government services to former 
drug producing safe havens. Both Bolivia and Peru combined vigorous 
eradication and interdiction efforts and with incentives for small 
farmers to switch to legal crops. We aim to help Colombia accomplish a 
similar record of success.
    In doing this, we cannot, and will not, abandon our allies in 
Bolivia and Peru. Their successes are real and inspired with 66-73 
percent reductions of coca production in each country. But they are 
also tenuous against the seductive dangers of the narcotics trade. This 
is why our Plan Colombia support package includes $46 million for 
regional interdiction efforts and another $30 million for development 
in Peru, Bolivia and Ecuador. These countries deserve our continued 
support to solidify the gains they have striven so hard to obtain. We 
are not content to allow cultivation and production of narcotics to 
simply be displaced from one Andean country to another.
Components of U.S. Assistance Package
    The proposed U.S. assistance has five components:
    Boosting Governing Capacity and Respect for Human Rights.--The 
Administration proposes funding $93 million over the next two years to 
fund a number of programs administered by the Agency for International 
Development (AID) and the Departments of State and Justice to 
strengthen human rights and administration of justice institutions. 
Specific initiatives include increasing protection of human rights 
NGOs, supporting human rights NGOs' information and education programs, 
creating and training special units of prosecutors and judicial police 
to investigate human rights cases involving GOC officials, and training 
public defenders and judges. We propose to allocate $15 million to 
support GOC and NGO entities specifically focused on protecting human 
rights. Boosting governing capacity also includes training and support 
for GOC anti-corruption, anti-money laundering and anti-kidnapping 
personnel.
    Expansion of Counternarcotics Operations into Southern Colombia.--
The world's greatest expansion in narcotics cultivation is occurring in 
insurgent-dominated southern Colombia. With this package, the 
Administration proposes to fund $600 million over the next two years to 
help train and equip two additional special counternarcotics battalions 
(CNBN) which will move into southern Colombia to protect the Colombian 
National Police (CNP) as they carry out their counter-drug mission. The 
program will provide 30 Blackhawk helicopters and 33 Huey helicopters 
to make the CNBNs air mobile so they can access this remote and 
undeveloped region of Colombia. It will also provide intelligence for 
the Colombian CNBNs. These troops will accompany and backup police 
eradication and interdiction efforts. They will also provide secure 
conditions for the implementation of aid programs, including 
alternative development and relocation assistance, to those impacted by 
the ending of illegal narcotics cultivation.
    Alternative Economic Development.--The Administration includes new 
funding of $145 million over the next two years to provide economic 
alternatives for small farmers who now grow coca and poppy, and to 
increase local governments' ability to respond to the needs of their 
people. As interdiction and eradication make narcotics farming less 
profitable, these programs will assist communities in the transition to 
licit economic activity.
    More Aggressive Interdiction.--Coca and cocaine are produced in a 
relatively small area of Colombia, while the Central American/
Caribbean/Eastern Pacific transit zone is approximately the size of the 
United States. Enhancing Colombia's ability to interdict air, water-
borne, and road trafficking is essential to decreasing the price paid 
to farmers for coca leaf and to decreasing the northward flow of drugs. 
The Administration proposes to spend $340 million on interdiction. The 
program includes funding over the next two years for radar upgrades to 
give Colombia a greater ability to intercept traffickers, and also to 
provide intelligence to allow the Colombian police and military to 
respond quickly to narcotics activity. It will support the United 
States forward operating locations in Manta, Ecuador, which will be 
used for narcotics related missions. These funds will also provide $46 
million to enhance interdiction efforts in Peru, Bolivia, and Ecuador 
to prevent narcotics traffickers and growers from moving into 
neighboring countries.
    Assistance for the Colombian National Police (CNP).--The 
Administration proposes additional funding of $96 million over the next 
two years to enhance the CNP's ability to eradicate coca and poppy 
fields. This request builds upon our fiscal year 1999 counternarcotics 
assistance of $158 million to the CNP. Our additional assistance will 
upgrade existing aircraft, purchase additional spray aircraft, provide 
secure bases for increased operations in the coca-growing centers, and 
provide more intelligence on the narcotics traffickers.
    All U.S. counternarcotics assistance to Colombia will continue to 
be in the form of goods and services. The counternarcotics components 
of Plan Colombia will be implemented by the Colombian police and 
military, and there are no plans to commit U.S. forces to implement 
militarily any aspect of this Plan. On the ground, our military 
assistance will be limited to training vetted counternarcotics units 
through the temporary assignment of carefully picked U.S. military 
trainers.
Human Rights Dimension
    We have also strongly supported the efforts of the Pastrana 
Administration to advance the protection of human rights and to 
prosecute those who abuse them. Complicity by elements of Colombia's 
security forces with the right wing militia groups remains a serious 
problem, although the GOC has taken important steps in holding senior 
military and police officials accountable for participation in human 
rights violations. Since assuming office in August of 1998, President 
Pastrana has demonstrated his Government's commitment to protecting 
human rights by the dismissal of four generals and numerous mid-level 
officers and NCO's for collaboration with paramilitaries or failure to 
confront them aggressively. There have also been repeated government 
declarations that collaboration between members of security forces and 
paramilitaries will not be tolerated. More must be done, however.
    U.S. assistance to Colombian military and police forces is provided 
strictly in accordance with Section 563 of the Fiscal Year 2000 Foreign 
Operations Appropriations Act--the so-called Leahy Amendment. No 
assistance is provided to any unit of the security forces for which we 
have credible evidence of commission of gross violations of human 
rights, unless the Secretary is able to certify that the Government of 
Colombia has taken effective measures to bring those responsible to 
justice. We are firmly committed to the Leahy Amendment, and have a 
rigorous process in place to screen those units being considered for 
assistance.
    The Government of Colombia also acknowledges the urgent need to 
improve physical security and protection for human rights workers and 
the NGOs to which they belong. Currently, the GOC has dedicated $5.6 
million to provide physical protection to approximately 80 human rights 
activists and their offices. The Plan outlines measures to strengthen 
the Human Rights Ombudsman's office, as well as to establish a 
Permanent National Commission on Human Rights and International 
Humanitarian Law.
    One of the most serious problems in Colombia, a ``silent crisis'', 
is the plight of its internally displaced persons (IDPs). The scope of 
the problem is enormous. The vicious conflict between paramilitaries 
and guerrillas is largely responsible for the forced displacement of 
Colombians. As many as 300,000 persons, mostly women and children, were 
driven from their homes in 1998 by rural violence. NGOs report that 
Colombia has the fourth largest population of displaced persons in the 
world. The USG provided, in fiscal year 1999, $5.8 million to the 
International Committee of the Red Cross's (ICRC) Western Hemisphere 
operations, with an additional $3 million earmarked for Colombia. 
Additionally, $4.7 million was contributed to the United Nations High 
Commissioner for Refugees' (UNHCR) general fund for the Western 
Hemisphere, a portion of which was used for institutional capacity 
building in Colombia. Responsibility for assistance to IDPs has been 
assigned to the Colombian government's Red de Solidaridad (Solidarity 
Network) which will work closely with the U.N. system, NGOs, and other 
Colombian agencies to coordinate services for IDPs throughout the 
country.
Peace Process
    President Pastrana has made bringing an end to Colombia's civil 
strife through a peace agreement with the various insurgent groups a 
central goal of his Administration. Pastrana believes, and the United 
States Government agrees, that ending the civil conflict and 
eliminating all of that conflict's harmful side effects is central to 
solving Colombia's multi-faceted problems.
    A peace agreement would stabilize the nation, help Colombia's 
economy to recover and allow for further improvement in the protection 
of human rights. A successful peace process would also restore 
Colombian government authority and control in the coca-growing region. 
We hope the peace negotiations going on now between the GOC and the 
FARC and the GOC and the ELN prove successful. We applaud the Colombian 
Government's determination to press the guerrillas to cease their 
practices of kidnapping, forced recruitment of children, and attacks 
against the civilian population.
    Mr. Chairman, distinguished members, the Administration has been 
pleased by the bipartisan support from both houses that share our 
concern for Colombia's future. At this moment, Colombia is a partner 
who shares our counternarcotics concerns and possesses the will to 
execute the needed reforms and operations. Our challenge, as a neighbor 
and a partner, is to identify ways in which the U.S. Government can 
assist Colombia in resolving these problems. Concerted action now could 
help over time to stem the illicit narcotics flow to the United States. 
Action now can contribute to a peaceful resolution of a half-century of 
conflict. Action now could return Colombia to its rightful historical 
place as one of the hemisphere's strongest democracies.

                         DEPARTMENT OF DEFENSE

STATEMENT OF GEN. CHARLES WILHELM, COMMANDER IN CHIEF, 
            U.S. SOUTHERN COMMAND
    Senator McConnell. General, go right ahead.
    General Wilhelm. Mr. Chairman, distinguished members of the 
Committee, I welcome this opportunity to discuss with you Plan 
Colombia, the Colombia Supplemental Request and our past, 
present and future initiatives to assist Colombia and its 
neighbors in their struggle against illegal drugs and the 
threats the drug trade poses to their societies and to our own.
    The counter-drug struggle provides the underpinning for 
most of our military engagement activities in the Andean 
region. With regard to--to Colombia, I am encouraged by the 
progress that is being made.

                       counternarcotics battalion

    During 1999, we created--we created the first of the 
Colombia counternarcotics battalions. This 931-member unit is 
composed of professional soldiers, all of whom have been vetted 
to avoid human rights abusers.
    The battalion has been trained by members of the U.S. 
Seventh Special Forces Group and is designed to interact with 
and provide security for elements of the Colombian National 
Police during counter-drug operations.
    Tactical mobility has long been the Achilles heel of 
Colombia's Armed Forces. This battalion will be supported by an 
aviation element consisting initially of 18 refurbished UH-1N 
helicopters provided through our cooperative effort involving 
INL at our State Department and the U.S. Southern Command 
representing the Department of Defense (DOD).
    These new units will focus their operations in the southern 
departments of Colombia, which have been the sites of recent 
wholesale increases in drug cultivation and production.
    To assure that combined police and military units 
conducting counterdrug operations have the best, most recent 
and most accurate intelligence, we have worked closely with 
Colombia while developing The Colombia Joint Intelligence 
Center, or COJIC as it is commonly referred to, at the Tres 
Esquinas Military Complex that abuts the southern departments. 
This computerized facility attained its initial operating 
capability on 18 December of last year.
    Deliberately and without fanfare, these new organizations 
have commenced operations. Their two initial forays into drug 
cultivation and production areas near Tres Esquinas resulted in 
arrests, seizures of drugs, destruction of laboratories, 
confiscation of precursor chemicals and identification and 
subsequent eradication of new cultivation sites.

                              action plan

    The initiatives that I have just described, we refer to 
collectively as Action Plan 99. The follow-on effort, Action 
Plan 2000 builds on these first-phase efforts.
    If--if additional funds are provided during the coming 
year, we will build two additional counternarcotics battalion 
and a brigade headquarters.
    With a well-trained and a fully equipped counternarcotics 
brigade consisting of more than 3,000 professional soldiers, 
the Colombian Armed Forces will be prepared to join forces with 
Air Mobile elements of the National Police and reassert control 
over the narcotics-rich departments of southern Colombia.

                              helicopters

    Continuing to focus on mobility and intelligence, we will 
provide 15 additional UH-1N helicopters, rounding out the 
aviation battalion.
    The UH-1Ns will ultimately be replaced by UH-60 Blackhawks, 
which have the range, payload, high altitude capability and 
survivability required by Colombia's Armed Forces to cripple 
the narcotics industry and bring the remainder of the country 
under government control.
    On the intelligence side, we will continue to develop and 
refine the Colombia Joint Intelligence Center and pursue a 
broad range of initiatives to improve our interdiction 
capabilities.

                      forward operating locations

    A key component of the interdiction plan, which was 
mentioned by Senator Stevens, is first-phase development of the 
forward operating location at Manta, Ecuador.
    As I had previously testified before Senator Stevens and 
Senator Inouye's Committee, this test--this facility is 
urgently required to replace the capabilities that we lost when 
we left Panama and closed Howard Air Force Base.
    Manta's importance stems from the fact that it is the sole 
operating site that will give us the operational reach we need 
to cover all of Colombia, all of Peru and the coca cultivation 
areas of Bolivia.
    Looking beyond the year 2000, we have engaged the services 
of the Military Professional Research Institute (MPRI); hand-
picked and highly experienced MPRI analysts will assess 
Colombia's security force requirements beyond the counterdrug 
battalions and their supporting organizations.
    The contract tasks MPRI to develop an operating concept for 
the Armed Forces force structures to implement the concept and 
supporting and related doctrine.
    In recent months, I have become increasingly concerned 
about Colombia's neighbors. The adverse social, economic and 
political conditions spawned wholly or in part by drug 
trafficking and the other corrupting activities it breeds are 
weakening the fabric of democracies in other nations in the 
region.
    For this reason, while I endorse a Colombia-centric 
approach to the drug problem, I caution against a Colombia-
exclusive approach.
    As we assist Colombia in making important strides to 
reassert its sovereignty over its territory and to curb growing 
cultivation, we should also take appropriate steps to preserve 
the noteworthy success--successes achieved by Peru and Bolivia. 
And we should be sensitive to emerging needs in the bordering 
countries of Ecuador, Panama, Venezuela and Brazil.
    This is by every measurement a regional problem. As such, I 
think we must pursue regional solutions.
    In summary, I am convinced that the Supplemental Funding 
Initiative is an important step in the right direction and not 
a minute too soon.
    To seize the initiative in a struggle, which according to 
the Director of the Office of National Drug Control Policy, 
claims as many as 52,000 lives per year, which Ambassador 
Pickering has already mentioned, I urge speedy approval of the 
Colombia Supplemental and increased support for the other 
nations in the region.
    I will be pleased to answer your questions. Thank you.
    Senator McConnell. Thank you, General.
    We are going to have 5-minute questioning rounds. And let--
let me just begin with a--a kind of overview statement of the 
last few years.
    From 1985 to 1992, why do we not just call these the 
``Just-say-no'' years--if you would put this chart up?
    Senator McConnell. During the ``Just-say-no'' years, both 
the production and use of drugs in this country declined. Then 
in 1992, about the time the President when asked with regard to 
inhaling, if he would have--had--if he had it to do over again, 
would he have inhaled, and he said, ``Sure, if I could.''
    We have the--those years in which both the production and 
the use--if you could hold that up a little higher--continues 
to go up.
    Now, excuse my skepticism, gentlemen, but here we are in an 
election year in 2000. And the Administration comes up here 
with a massive request, which I must say parenthetically, I am 
likely to support with some revisions, but where have you been 
for the last 7 years?
    Mr. Ambassador?
    Ambassador Pickering. Let me say that the results in both 
Bolivia and Peru, some of which you already cited, show you 
some of where we have been for the last 7 years or the last 
whatever years.
    In the last 3 years, the Banzer Administration through real 
dedication has reduced cocaine production 50 to 60 percent, and 
that is a conservative figure. Some say more like 70. That 
similar reduction levels have been----
    Senator McConnell. OK. You are--you are taking credit for 
what happened in Peru, are you?
    Ambassador Pickering. We are, for some of it, because we 
had provided assistance for it. But you are entirely right. It 
does not work if the countries themselves are not prepared to 
gear up and do the job.
    And that is precisely what we compliment President Banzer 
and President Fujimori for doing. It is not something the 
United States would do alone, but it is something we can make a 
major contribution to.
    Now, both of those successes are now being applied to 
Colombia, but we share with you the concern, the balloon 
effect, that successes in Bolivia and Peru have helped to push 
some of this problem in the direction of Colombia.
    Colombia is there. Why have we not done more in Colombia 
sooner? Well, we have done a lot with the Colombia National 
Police, but you and I know that until 1 year ago, there was a 
president by the name of Samper in Colombia, whose least 
interest was in cooperating and taking that personal 
responsibility or the national responsibility to work on drugs.
    And so as a result, what has changed in Colombia is two 
things: A rapid increase in production but a new president and 
a new team that are willing to work on this particular problem, 
the way President Banzer and President Fujimori have led their 
countries to work on.
    So I believe, in fact, we now have a successful series of 
ingredients in place to work on this particular problem, and 
obviously you know and I know that it takes two. It takes the 
country concerned, as well as the willingness on the part of 
the United States to do that. And that is why we are before you 
today.
    Senator McConnell. Well, I am a little more--and I am not 
as concerned about their President as I am ours. I mean, the 
question is: Where has this Administration been for the last 7 
years on this problem?
    We see the statistics. They are off the charts. Now, you 
are--you are telling me, Mr. Ambassador, that--that we did--we 
were making a significant request before this year. Well, I am 
looking here at----
    Ambassador Pickering. I am not. I am saying that, in fact, 
there have been significant successes within the requests that 
we had made before this year----
    Senator McConnell. But--but there--but--but there----
    Ambassador Pickering (continuing). That there was a reason 
why we did not go into Colombia.
    Senator McConnell. But in Peru, Bolivia and Ecuador, you--
you gave me a--a rationale for not making a huge request for 
Colombia before. But you were seeking to take credit for what 
has happened in Peru and Bolivia and Ecuador.
    These figures just pale in comparison to what has been 
dropped on us here in an election year in an attempt obviously 
to--to try to obscure what is the--the--the weakest imaginable 
record on--on fighting drugs that you could conceive of over 
the last 7 years.
    General, you are not in politics here, but you are also 
sitting at the table. I wonder if you have some rationale for 
why all of a sudden, right now, we are getting a massive 
request like this to go after a problem that--that--that--that 
the chart indicates has been worsening over the last 7 years.
    Ambassador Pickering. With all respect, Mr. Chairman, the 
reason why we are now up with a very large request is both the 
character of the problem in Colombia, after many years of the 
Samper Administration, a guerrilla movement and now a 
paramilitary movement that are deriving enormous benefits, and 
so they are seeking to spread this as widely as possible.
    The unlimited capacity they have had to transport these 
drugs through Colombia and the change in Colombian 
Administration, I think, all produced very clear and self-
evident reasons why we should be putting a significant amount 
of money into Colombia now to deal with this issue.
    Senator McConnell. Well, I--as I said, I may well support 
this with modifications. The--the question remains, and you 
have done the best you can with a question that simply cannot 
be answered, which is: Where has this Administration been for 
the--for the last 7 years?
    The--the truth of the matter is there has been little or no 
interest in the war on drugs. And both the production and the 
use of it--the use of it here in the United States, the--the 
figures are indisputable.
    Now, during his visit, President Pastrana made a commitment 
to break the links between the military and paramilitary groups 
to assure any soldier engaged in human rights abuses is brought 
before a civilian court.
    Unfortunately, a panel known as the Supreme Judicial 
Council continues to have the right to intervene and direct 
that cases be removed from the civilian courts and considered 
only by the--by the military courts.
    The record shows the military justice system invariably 
drops charges or fails to prosecute serious cases of abuses. I 
know there are a few officers who have lost their positions, 
but that falls far short of appropriate legal action.
    Now, I understand that President Pastrana could issue an 
executive order which would forbid this Council from 
undermining investigation and prosecution of cases of human 
rights abuse. He could do that.
    I am considering language which conditions assistance on 
just such an executive order. And I wonder, Mr. Ambassador, how 
you would feel about that kind of stipulation in the bill?
    Ambassador Pickering. I believe that President Pastrana 
will keep his commitment to us and move in that particular 
direction.
    I think as a result, it makes it unnecessary to condition 
the legislation. And many countries around the world find it 
easier to take initiatives than to be told by us exactly what 
they have to do.
    They are all in the common interest and they are moving 
ahead. And as you have said, President Pastrana has already 
begun to take actions in dealing with this nexus between the 
military and the paramilitaries, and I believe he will continue 
to do so.
    Within the last 2 days, two more paramilitaries who occupy 
significant positions in their structure have been arrested in 
Colombia.
    I also believe that the President is very serious when he 
has not only relieved individuals but looked into the record of 
finding ways to bring those individuals to justice if the 
evidence and the information is available to do so.
    When I was there last week, I talked to him, as I know 
General McCaffrey is talking to him this week, about taking 
that step that he has committed to take, to us, to move these 
cases into the civilian courts.
    Senator McConnell. So the answer is no, you--you would 
oppose that language.
    Ambassador Pickering. I would.
    Senator McConnell. Yes. One quick question before going to 
Senator Leahy. Mr. Ambassador and General, there is strong 
evidence that the paramilitaries with known ties to the 
traditional Armed Forces are also profiting from the drug 
trade.
    Although you acknowledge the paramilitaries are a problem, 
I have heard no concrete discussion of how you plan to target 
their trafficking or break their ties to the regular military. 
What should the Pastrana government be doing to break that tie?
    Ambassador Pickering. Would you like me to start with that, 
if I may?
    We believe that the paramilitaries are deeply involved in 
the drug trade. And that is only one of a number of reasons why 
they need to be opposed and why President Pastrana should move 
against them.
    When I was in Colombia last week, it was made clear that in 
the southern area, on which we intend to target the newly 
trained units and to use them as a basis for reestablishing the 
government authority that is necessary to eliminate the coca 
production in that area either through fumigation or 
eradication by the people themselves, the paramilitaries have 
increased their strength, increased their position, and 
increased their control and operation of the trade.
    So they are directly in the line of the government advance. 
To be able to do this--and there is nothing that I have seen 
that in any way, eliminates their role or indeed the effort to 
do that.
    We have as part of our proposal before you a continuation 
and expansion of a program we have undertaken with President 
Pastrana to deal with the ever-present and very difficult 
question of corruption.
    It is also a serious problem in Colombia. I think that as 
you look around there is not any problem that anybody else has 
that Colombia does not seem to have in one way or another. But 
this is important and this is within and part of the budget 
proposals that we have before you.
    And President Pastrana has also made it clear that he is 
committed in moving in this area.

                             paramilitaries

    General Wilhelm. Senator McConnell, if I could pick up 
where the Ambassador left off, I think there can be absolutely 
no doubt that the paramilitaries are directly involved in the 
narcotics trafficking enterprise.
    I think we can deduce that from their own admission. They 
have openly acknowledged their involvements and their links 
with drug traffickers.
    In terms of the Colombian government's approach to address 
this linkage between the paramilitaries--the paramilitaries and 
the narco-traffickers, I think it has been clearly defined by 
the Chief of Defense, the Commander of the Armed Forces, 
General Tapias.
    Sir, General Tapias has developed a 6-year strategy, which 
supports Plan Colombia. This is the overarching Colombia 
Military Strategy. It is a regional strategy. The first 2 years 
target the southern departments where the majority of 
cultivation and production takes place. Years 3 and 4 target 
the----
    Senator McConnell. Sorry to interrupt you, but how does 
that help, if you still have a safe haven the size of 
Switzerland?

                          colombia's strategy

    General Wilhelm. OK, sir. You are discussing the Despeje 
region, which has--was created to provide a negotiating space 
with the FARC.
    Sir, the Dispeja region is not a major drug cultivation or 
production area in Colombia. Estimates of the total amount of 
coca being grown there hover around the 10 to 12 percent range 
of the total national area being cultivated.
    When we consider that in the context of the growing regions 
in Putumayo and Caqueta provinces, the two southern 
departments, it is probable that we would target the vast 
majority of our efforts to Putumayo and Caqueta anyway. It is 
not a primary drug cultivation area.
    Sir, if I could return very briefly to General Tapias's 
strategy, the 3rd and 4th years would target the central 
portion of the country.
    And during years 5 and 6, General Tapias would then seek to 
reassert control over the rest of Colombia's national land 
mass.
    In the process, he would seek to reduce drug production by 
50 percent. That strategy is actually more ambitious than the 
goals stated in our own national drug control strategy, where 
we say that by the year 2002, we would like to reduce the 
amount of narcotics flowing through the transit zone by 10 
percent and produced in the Source Zone by 15 percent; and by 
the year 2007, reduce the amount in the Transit Zone by 20 
percent and in the Source Zone by 30 percent. General Tapias's 
figure, again, is 50 percent.
    In putting his strategy together, General Tapias--and I 
discussed this in great detail during many visits. I average 
about a visit every 6 weeks to Colombia. We agreed that there 
were two ways that he could go with this, and these were his 
decisions.
    He could target two modes of the apparatus that is visiting 
these ills on Colombia. He could take on the paramilitaries and 
the insurgents directly. This would involve primarily targeting 
the fronts and the mobile columns of the FARC and the 5,000 to 
7,000 paramilitaries.
    That would result in pitched battles. I think history 
proves that it is very, very difficult to resolve insurgency 
strictly on the battlefield. Insurgents tend to fight at times 
and places of their own choosing when the advantage is clearly 
theirs. We learned that in 10 years in Vietnam.
    Instead, he went an alternate path, which was to target the 
FARCs and the paramilitaries' primary line of sustainment, the 
narcotics trafficking industry.
    We know that fully one half of the FARC fronts derive their 
principal financial support from their links with 
narcotraffickers.
    The other insurgency, the ELN, about 25 percent of their 
operating elements have their--that same linkage.
    The Tapias strategy involves attacking their lines of 
sustainment and logistics, drying up the funds available from 
narcotrafficking industry, which then in turn, I think, would 
disable the insurgency.
    So that was his approach. That is the Colombian 
government's approach. I believe it will work.
    Senator McConnell. Thank you, General.
    Senator Leahy. Thank you, Mr. Chairman.
    I should note for the record when we talk about whether the 
Administration has done anything or not, this Administration 
has spent far, far more money on law enforcement than any 
Administration in history in combating drugs.
    They have done it at the state, local and Federal level. I 
mention that just so the record will be clear, and we have 
steadily increased our aid to Colombia.
    I would also note that law enforcement does not seem to be 
the answer. We build a lot more prisons than we do schools in 
this country to combat drugs, but it does not seem to do a 
great deal.
    ``Just say no'' may be the answer, but I doubt it. I will 
not embarrass everybody by asking those, Republicans and 
Democrats alike in the room, who have never used drugs 
illegally to stand up.
    Now, Mr. Pickering, what I do worry about, is--just like 
with some of the money we spend on law enforcement, which has 
not done a great deal of good other than giving us the largest 
prison population of just about any country in the world--it 
looks to me like we are embarking on an open-ended multi-
million dollar commitment without benchmarks to say whether we 
are successful or not successful.
    I think of our past experience in Central America in the 
1980s when we spent billions of dollars without anybody saying 
whether we were ahead or not.
    Now, you said the Colombian Army is doing its best to purge 
itself of human rights violators. Well, I see only about 15 or 
so Army officers in 10 years that have been either prosecuted 
or purged compared to, I think, thousands in the National 
Police.
    Yesterday, Human Rights Watch released a report documenting 
links between the Colombian Army and the paramilitary groups, 
saying what a lot of reputable journalists have been saying for 
a very long time.
    When I asked the State Department a couple of years ago 
about these links, they said there was no evidence to support 
it. Then about a month ago, the State Department said the 
Colombian Army has made a lot of progress severing these links 
for which they had no evidence before.
    The links are there. Why should we not condition any aid on 
the Army's assurances that its members who violate human rights 
or aid or abet the paramilitaries will be prosecuted, and 
prosecuted in a civilian court where they are not protected?
    Ambassador Pickering. That is what we have said. Of course, 
as you know, Senator, and that is what we are pushing to get 
accomplished. It is, I think, important to note that the 
military record has improved markedly.
    Their responsibility has diminished into low single figures 
in the reports of others for human rights violations. It is 
also, I think, important to note that the bulk of the evidence 
relied upon by the excellent human rights report came from 
Colombia investigators themselves, which I think is a real 
advance. The fact that people at their own peril are able, in 
the Colombia government, to investigate these activities and--
--
    Senator Leahy. But generally----
    Ambassador Pickering. Such important reports is a 
significant forward step; and it leads, I think, to the basis 
for the next steps, which you and we both share, which is the 
dismissal and----
    Senator Leahy. But----
    Ambassador Pickering (continuing). Prosecution of people so 
involved.
    Senator Leahy. As far as the excellent human rights report 
you just referred to, General Tapias said yesterday that Human 
Rights Watch conspires with drug traffickers to defame the 
Army. This does not show that this commitment is foremost in 
his mind.
    Ambassador Pickering. I--I have not seen the report from 
General Tapias, but I have talked to President Pastrana, who 
happily is still Commander in Chief in Colombia.
    Senator Leahy. Well, I hope so. As I said before, I have a 
great deal of respect for President Pastrana, as I do for you, 
and for General Wilhelm.
    But I am worried that some people down there may give lip 
service, but then when pushed to actually do something, are 
unwilling to do it. And that is what worries me.
    Let me ask General Wilhelm. General, if General Tapias says 
that Human Rights Watch conspires with drug traffickers to 
defame the Army, does that show--or does that say anything 
about his own commitment to human rights?

                              human rights

    General Wilhelm. Senator Leahy, I have not talked to 
General Tapias since the report was announced, but I have 
talked to him about this subject on many occasions.
    I know him well. I am personally convinced that he is 
absolutely committed to reducing these abuses. So rather than 
engage in generalities, let me give you a couple of specifics.
    About a month ago when I was down in Bogota, General Tapias 
gave me the--a list of 400 people by name, paramilitaries who 
had been arrested, detained, turned over for judicial action.
    Senator Leahy. To the civilian court or to the military 
courts?
    General Wilhelm. Some of both, sir, some of both.
    Senator Leahy. The reason I ask is that military courts 
have generally not done anything.
    General Wilhelm. Sir, that is--I think--I cannot really 
comment precisely on the statistics concerning judicial 
impunity, but I have heard the same thing.
    But in an operational sense, the point is that they have 
undertaken these operations. And as a matter again of 
operational fact, more than 100 operations were mounted by the 
security forces in the last year against paramilitary 
organizations.
    I cannot confirm it right now, but I received a report this 
morning that the Colombian Marines had mounted an operation 
against paramilitaries near Salado, one of the recent sites of 
paramilitary atrocities and that they had killed 2 and had 
captured 11 paramilitaries.
    I am personally convinced that there are not institutional 
linkages between the Armed Forces of Colombia and the 
paramilitaries. Having said that, I cannot rule out local 
collusion.
    Senator Leahy. General and Ambassador, one of the problems 
we have in this Committee, on both sides of the aisle--there is 
enormous respect for both of you, respect that you have both 
earned in your long and distinguished careers--is that we have 
to rely on you, both of you, to be as careful in the scrutiny 
of what is going on here as anybody. Because there is a concern 
among many of us--and this has nothing to do with political 
ideology--that we are buying ourselves into a never-ending tar-
baby, where ultimately we do not stop drugs and we tarnish our 
own reputation.
    Thank you, Mr. Chairman.
    Senator Stevens [presiding]. Thank you very much.
    President Pastrana came and visited with the Committee. We 
were very pleased at that and have a very high respect for him 
and the changes he is trying to bring about in Colombia.
    However, in the visits I have just made to the two commands 
I mentioned, I found out that Colombia law prohibits sending 
high school graduates or above into combat.
    Now, you say you--they are training the finest soldiers in 
the world. We do not train people for combat unless they have 
high school degrees.

                              bachilleres

    General, how can you support your statement to us that they 
are the finest trained people that you have seen?
    General Wilhelm. OK. Senator Stevens, all right, you are 
making direct reference to the bachilleres, and that is 
correct.
    As best I have been able to determine within the structure 
of the Colombian Armed Forces, there have been somewhere in the 
neighborhood of 30,000 young Colombians who by virtue of their 
educational level have been exempted from military service that 
involved direct combat operations.
    Senator Stevens. Are you training them for this combat?
    General Wilhelm. Sir, we are training other--no, sir. We 
are not training bachilleres, if I----
    Senator Stevens. Well, they are training conscripts, and 
they stay for 12 months to 18 months, I am told. They are 
conscripts.
    General Wilhelm. No, sir.
    Senator Stevens. Sir, am I informed incorrectly that they 
are not conscripts that are being trained in these Army units?
    General Wilhelm. The young Colombian soldiers who are being 
trained in the counterdrug battalions are changed--are required 
to change their status from--from conscript to professional 
volunteer soldiers before entering the units.
    Senator Stevens. And they--they all--what about those who--
that have the high school diplomas?
    General Wilhelm. All right, sir. If I could continue with 
my----
    Senator Stevens. I have only got 5 minutes, General. I hate 
to be short with you, but I am going to go vote here in a few 
minutes. What about the ones that are--have the high school 
diplomas?
    General Wilhelm. OK. This is a part of the military 
structure that Colombia is moving right now to reform and have 
been moving on since Mr. Rodrigo Lloreda was the Minister of 
Defense.
    Senator Stevens. All right.
    General Wilhelm. One of their proposals is to--is to 
eliminate the bachilleres, convert a portion of that 30,000-
member structure to professional soldiers and upgrade the 
quality of their Armed Forces across the board and eliminate 
that particular segment of the Armed Forces, which I think we 
all agree, Colombians and U.S. friends, is a non-productive 
segment of the military.
    Senator Stevens. All right. Let us go on to another subject 
here.
    On the Defense side, this request asks for $439 million to 
refurbish and support the helicopters. I am told $85 million of 
that will refurbish helicopters; $350 million is to buy 
Blackhawks.
    In our own Army, we are now--in the Army, the National 
Guard and Marines flying older UH-1s that--than this model UH-
60.
    It would be much more cost-effective to continue to modify 
the UH-1s. Why are we buying these Blackhawks, if this is the 
commencement of a program where we need the others immediately?

                                 uh-60s

    General Wilhelm. First of all, sir, the Colombians 
considered four options as a means to address their mobility 
needs.
    They considered the Blackhawk option. They considered a mix 
of Bell products, which would have been remanufactured UH-1s 
and the AH-1W gunship. They considered a Russian option that 
involved MI17s and MI35s and Carmine 50s. And they considered 
an option involving European aircraft built around the Augusta 
129.
    The Blackhawk option was felt to be best for the near and 
long term for some of the reasons that I cited in my opening 
statement, but----
    Senator Stevens. I agree with that too, but we are--this 
Committee is putting up money for our Army, our National Guard, 
our Reserve to refurbish existing helicopters. What you are 
saying is this operation is going to be better equipped than 
our own military.
    General Wilhelm. Well, sir, there are some limitations on 
what we could do with the UH-1 inventory. To produce the Huey 2 
aircraft that I think you are referring to, one of the first 
ingredients is a serviceable UH-1, normally UH-1H base frame to 
work on.
    Our inventory of those aircraft is just about exhausted. 
And for the long term, when we look at life cycle maintenance 
and life cycle cost, a single family of aircraft in two 
configurations armed in troop carriers will be more economical 
for the long-term.
    That is what led to the Blackhawk decision. And as I 
mentioned, sir, the characteristics of their operating area, 
the ranges required, the altitudes needed to confront, after 
the coca problem is solved, the heroin problem.
    Senator Stevens. I have to tell you, both of you, I join 
Senator Leahy to say I have great respect for both of you and 
in your careers.
    But we are dealing with an industry--I am told to ask for 
these figures. These are estimates that--that on the drug 
traffic, U.S. traffickers get about $80 billion to $100 billion 
from this industry, this drug industry. And the Colombian 
traffickers get $3 to $6 billion a year. The FARC guerrillas 
get $100 to $600 million a year.
    I am told that those insurgents do not have a restriction 
on not having people who have got higher degrees in their 
midst, that they are probably the best equipped, the best 
trained, even to their modernization in terms of communications 
and command and control, they are probably the best in South 
America today.
    Now, we have got one--we are going to equip one brigade to 
take on what I was told is about 25,000 of those insurgents.
    Now, my one question to you is: Who goes in if this thing 
blows up? Who goes in if those hand-held weapons knock down 
these helicopters, and we have a bunch of American-trained 
Colombian forces right there in the midst of these guerrillas, 
these insurgents?
    Who is going to get them out, General?
    General Wilhelm. Senator Stevens, first I need to clarify 
one point. The counterdrug brigade does not target the 
insurgents. It targets the----
    Senator Stevens. I understand.
    General Wilhelm (continuing). Narcotraffickers who support 
it.
    Senator Stevens. Do you think they are just going there--
and let me--25,000 trained insurgents are going to sit there 
and let them pick off--cherry pick the operating arm of the 
drug traffickers? Oh, come on now. Who is going to go in if 
this blows up?
    General Wilhelm. That is----
    Senator Stevens. There are 800 people on the ground. Tell 
me this is not a Vietnam again.

                                vietnam

    General Wilhelm. Sir, it is not a Vietnam again. I spent 
1965, 1966, 1969 and 1970 in Vietnam, and I think I will know 
it when I see it happening again. When I go to Colombia, I do 
not feel a quagmire sucking at my boots.
    Senator Stevens. I am----
    General Wilhelm. I think we have a good----
    Senator Stevens. The guerrillas control 70 percent of the 
land mass now.
    General Wilhelm. No, sir.
    Senator Stevens. How much would you say?
    General Wilhelm. Between 40 and 50 percent, and I would not 
say the guerrillas control it. I would say that the government 
does not control it. It is contested territory.
    Senator Stevens. Well, that was Vietnam, was it not?
    General Wilhelm. No, sir.
    Senator Stevens. Well, we have got to go vote, but I have 
to tell you, if you do not get the drift, we are probably your 
best supporters in the Senate on this issue.
    I want to help this President, but I do want to see a plan 
come to us that is survivable and tells us what is going to 
happen if something goes wrong. I do not see this here. I 
really do not.
    And I think we are going to have stand in recess.
    General Wilhelm. Senator, I know that our time is short, 
but----
    Senator Stevens. I know, General. We have to vote. Thank 
you very much.

                            colombian pilots

    General Wilhelm. They will become the pilots in command, 
and then we will back fill the loveseats with new Colombian 
pilots. To get this program underway and to really 
operationalize a plan in Colombia in a responsive way, contract 
pilots are the right way to go.
    There are only three U.S. contract pilots involved in this, 
and there is very, very clear guidance that they will not 
participate in tactical missions. They oversee, what we call, 
safety and standardization to make sure that the training of 
all the flight crews is conducted to our standards and that at 
the end of the day, we emerge with well-qualified and capable 
air crews. But we have, I think, a good, progressive program 
that will fill those cockpits with Colombian aviators in a very 
efficient and short period of time.
    Senator McConnell [presiding]. Thank you, General. And 
finally, Ambassador Pickering, you know, we certainly agree 
that Colombia has a horrible problem. It came about in part 
because of the aggressive efforts in Peru and Bolivia, which 
achieved some level of success. And so I get back to, in 
closing here, with sort of how we began.
    Are you concerned--I guess you are not or you would not be 
here, but ease my concern that this $600 million hammer on 
Colombia does not just make a problem re-emerge in other 
countries and reassure me that somehow in all of this, there is 
a regional strategy that deals with the entire area.
    Ambassador Pickering. There is, Senator. And there is a 
regional component in the plan. I, frankly, would have hoped it 
would have been larger, but we all operate under constraints 
and you know what those are as well as I do. But there is a 
regional piece, obviously, because of the pressure being put on 
the problem in Colombia. We do not want that to move back to 
Peru or Bolivia or Ecuador.
    So, there is an early piece, I will put it that way. At the 
same time, we are building up to deal with the problem, and we 
are talking in the build-up in Colombia. Not in days or weeks 
or months even, but probably years. The General cited some 
benchmark figures out 2 to 5 years from now.
    But we do think we need to have an immediate and important 
input of additional funding over and above the base, which they 
already received, to continue their activities now for Bolivia, 
Peru, Ecuador and perhaps others. And I was just down to the 
region and talked to a number of people about it. We all share 
exactly your concern.
    There is a regional strategy. The regional strategy is to 
fight this on a regional basis. To increase cooperation. To 
make sure that all the left hands and all the right hands know 
what is going on and are working together to try to deal with 
this problem; and that our funding assistance gets targeted 
first where the problem is worst, but then next is second order 
of priority to where it might go.
    And the Andean Region, unfortunately, has the climate, the 
disparities in economic status and all the other things that 
you know that make it a convenient and very productive area for 
this kind of activity. So, we have to work it on a regional 
basis.
    General Wilhelm. Now, Senator McConnell, might I add just a 
couple of comments to the Ambassador's response? We are very 
sensitive to that, as well, so the question is what next. And 
in the military, we always look at a cycle that we call action, 
reaction and counteraction. We always want to control the first 
one and the last one.
    We have developed what we call a counter-narcotics campaign 
plan, which is a regional plan. Phase one, which is about 2 
years in length, we call the regionalization and stabilization 
phase.
    During that phase, we would work not just with Colombia, 
but with the other nations in the Andean region to help them to 
develop the capabilities that they would need to successfully 
contend with the drug threat.
    Phase two we call the decisive operations phase. That is 
when the nations and the region, working in a coordinated way, 
would strive to drive a wedge between the various operating 
modes of a narco trafficking industry. Be it cultivation, be it 
production or be it transport.
    Then in phase three, we would go to what we call a 
sustainment phase which would emphasize intelligence collection 
and sharing where the security forces of the region, both 
military and police, would demonstrate the ability to adapt to 
the changing patterns of activity that the narco trafficking 
industry has demonstrated it is capable of doing.
    This is a formal campaign plan, which has been submitted to 
the Joint Staff. It is well understood, sir, and has as its 
foundation a regional approach.

                     additional committee questions

    Senator McConnell. Well, thank you both very much. I 
appreciate your coming up, and as you know, it is our plan to 
deal with this request rather expeditiously. Thank you very 
much.
    Ambassador Pickering. Thank you very much, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
           Questions Submitted by Senator Frank R. Lautenberg
    Question. President Pastrana says he wants to fight against the 
drug lords while seeking to negotiate a solution to the political 
insurrection which has divided Colombia for decades. Is the war on 
drugs separable from the guerrilla war? Doesn't the ``push into the 
South'' in Plan Colombia really mean stepped-up military attacks on the 
left-wing guerrillas?
    Answer. Drugs and the insurgency are linked financially. Narcotics 
money funds the guerrillas, funds the paramilitaries, and fuels the 
violence that is tearing at the fiber of Colombia. One added benefit to 
the increased counternarcotics efforts could be the breaking of these 
financial links.
    The plan's push into southern Colombia is an effort to step-up 
operations against the narcotics industry in that part of the country. 
Because of their links to narcotraffickers, the guerrillas may be 
subject to increased police and military action. The same is true for 
paramilitary groups and other criminal groups who are involved in the 
illegal drug industry.
    Question. Right-wing paramilitaries, like leftist guerrillas, 
reportedly have ties to drug producers and traffickers. Aren't you 
concerned that military action against the leftists will only 
strengthen the drug lords' ties to paramilitary organizations which 
might also allow them to ply their deadly trade?
    Answer. The objective of Plan Colombia's ccunternarcotics component 
is to confront and disrupt the narcotics trade. As long as they 
maintain connections to the narcotics trade, the paramilitaries are 
valid targets for counternarcotics units, as are the guerrillas. The 
plan aims to sever the financial ties between traffickers and all 
illegal armed groups, regardless of the political orientation they may 
claim. The paramilitaries are present protecting trafficking in the 
South along with the FARC.
    Question. Mr. Secretary, since you are here as the Administration's 
representative, I hope you won't mind if I ask you a question outside 
the purview of the State Department. In the multi-front ``war on 
drugs,'' are we devoting sufficient resources to demand reduction? In 
particular, I am concerned that we may not be adequately funding drug 
treatment programs to help those who would like to free themselves of 
drug addiction. Shouldn't we be doing more here at home as well as 
abroad?
    Answer. I refer you to the Office of National Drug Control Policy 
(ONDCP) for a discussion of domestic drug policy. However, there are 
some telling statistics on this matter. According to information from 
ONDCP, one third of the fiscal year 1999 National Drug Control Budget, 
roughly $5.4 billion, went towards demand reduction in the United 
States. The fiscal year 2001 budget contains $6 billion for demand 
reduction. Clearly, these efforts in Colombia are not a trade-off. 
Rather, they are complementary. It is important that the United States 
maintain efforts against both supply and demand if the problem is to be 
brought under control.
    Indications are that domestic demand reduction programs are 
working. In August 1999, ONDCP reported that youth drug use had dropped 
13 percent in a one-year span. The decline over that period was even 
more pronounced for the use of inhalants (45 percent) and cocaine (20 
percent). ONDCP also reported that drug-related murders were at a ten-
year low. In short, we are doing more.
    Question. While I respect President Pastranals efforts to develop a 
comprehensive plan to bring peace and unity to Colombia, starting by 
ending the narcotraffickers' grip on the country, can a solely national 
strategy truly succeed? Won't the drug business simply move to 
Venezuela or Ecuador or Brazil, just as it moved to Colombia from 
Bolivia and Peru?
    Answer. Concerns over narcotics industry relocation are the reason 
that the package includes additional funds to support Colombia's 
neighbors. There is also a cultural factor that mitigates the threat of 
large-scale migration of drug crops to those specific countries. Like 
Bolivia and Peru, Colombia already had a history of coca cultivation 
when the industry shifted there. The shift of cultivation represented 
the expansion of an existing practice; not the introduction of a new 
one as it would in Brazil, Venezuela and Ecuador.
    Question. I understand the United Nations Drug Control Program 
(UNDCP) is eager to begin testing in Colombia of microherbicides (sic) 
which could wipe out drug crops while leaving other plant and animal 
life unaffected. Has Colombia signed the proposal to allow this U.S.-
funded project to go forward? Do you consider this a promising approach 
to narcotics, the ``magic bullet'' we all are hoping for?
    Answer. Colombia has not yet signed the agreement to allow testing, 
but preliminary testing has been conducted elsewhere under other 
auspices. I believe that the Government of Colombia understandably 
wants a high degree of confidence regarding the environmental impact of 
the project before moving to the next level.
    The Department of State is encouraged by the early results of the 
mycoherbicide project, and we believe that this is indeed a promising 
approach. That said, we resist labeling anything as a ``magic bullet,'' 
as that term can build unrealistic expectations.
                                 ______
                                 
              Questions Submitted to Gen. Charles Wilhelm
            Questions Submitted by Senator Daniel K. Inouye
                      forward operating locations
    Question. General Wilhelm, the request includes $38.6 million in 
military construction funds to support your new base, or forward 
operating location, in Manta, Ecuador. Can you tell us how many U.S. 
military will be assigned to it on a permanent and temporary duty 
status and for how long the base will be used by the U.S. military?
    Answer. We have a 10-year access agreement with Ecuador for a 
Forward Operating Location on the Ecuadorian Air Force Base in Manta. 
We have no plans for a permanent U.S. Base. We will have 10-12 
permanent military personnel on the ground. The number of temporary 
duty personnel will normally range from 100-250 depending on the 
counterdrug operations being conducted.
    Question. General Wilhelm, last year in a similar hearing, I 
questioned what it would cost to build a fully operating military base 
in Ecuador. Can you now tell us what those costs would be?
    Answer. We do not have any plans to build a U.S. military base in 
Ecuador. We have, however, concluded a ten year access agreement with 
Ecuador for a Forward Operating Location (FOL) on the Ecuadorian Air 
Force Base in Manta. We require $67.4 million in facility improvements 
to meet U.S. operational and safety standards at Manta. This amount 
includes $5.6 million for planning and design and $38.6 million for the 
runway, taxiway and ramp construction this year. An additional $23.2 
million is required in fiscal year 2001 for vertical construction 
including the rescue station, operations center, hangar, maintenance 
facility, and a lodging facility.
                          support to colombia
    Question. General Wilhelm, this budget includes $98 million in DOD 
funds to support the Colombian Plan. This is in addition to the milcon 
money for Manta. Can you tell us, is this the totality of DOD's funding 
to support the counterdrug program in Colombia, or are you using other 
funds to carry out this effort?
    Answer. The $98 million does not reflect the total Department of 
Defense (DOD) fiscal year 2000 funding requirement to support our 
counterdrug efforts in Colombia. DOD has additionally budgeted $76 
million in fiscal year 2000 to support the counterdrug program in 
Colombia.
    Question. What is DOD's involvement today in the counter-drug 
efforts in Colombia?
    Answer. Department of Defense (DOD) involvement in counterdrug 
efforts in Colombia falls within two broad categories. We deploy 
aircraft and crews to Forward Operating Locations and sites, frequently 
outside Colombia, to conduct detection, monitoring and tracking 
missions in support of Source Zone air interdiction efforts. We also 
deploy DOD personnel to conduct training missions in Colombia. 
[Deleted.] Today we have a total of 26 DOD personnel deployed to 
Colombia providing training support to Colombian counterdrug forces in 
Bogata, Tres Esquinas, and Mariquita. These personnel are members of 
Joint Planning and Assistance Teams, Mobile Training Teams, Technical 
Assistance Teams, and Riverine Training Teams. We also have a three-man 
Subject Matter Expert team that is providing technical advice and 
assistance to Colombian Intelligence Specialists at the recently 
established Colombian Joint Intelligence Center in Tres Esquinas. This 
is a snapshot. Our presence varies from day to day based on the 
missions that are being performed in support of the counterdrug 
struggle.
    Question. What is SOUTHCOM's total counterdrug budget for fiscal 
year 2000 (in addition to the amounts you are requesting in this 
supplemental)?
    Answer. Our total counterdrug budget for fiscal year 2000 is 
approximately $357 million. This amount is separate from the 
Supplemental request.
                      military counterdrug efforts
    Question. General Wilhelm, some argue that this $955 million will 
be ineffective in stopping production of cocaine in the Southern 
Hemisphere. They argue we would be better spending the funds educating 
Americans on the dangers of drug use and treating those who are already 
using drugs. How do you respond to that argument?
    Answer. The National Drug Control Strategy states ``demand and 
supply reduction efforts complement and support one another.'' Efforts 
to reduce the demand for illegal drugs in the U.S. must be supported by 
efforts to reduce illegal drug production as well as the supply that 
reaches the U.S. This supplemental will support United States Southern 
Command's efforts to achieve Goals 4 and 5 of the National Drug Control 
Strategy by significantly strengthening our Source and Transit Zone 
counterdrug programs.
    The Supplemental will provide the means to build partner nation 
capabilities and enhance their efforts to eliminate cultivation, 
processing, manufacturing, and trafficking of illegal drugs in the 
Source Zone. At the same time, it will enable United States Southern 
Command to continue to support counterdrug operations in the Transit 
Zone. With expanded education for Americans at home, we will have 
effectively put a full court press on the illicit drug industry.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
               military effectiveness against guerrillas
    Question. General Wilhelm, can a military force--even one we've 
trained and which has helicopter mobility--really be effective against 
entrenched guerrillas fighting in remote jungle areas?
    Answer. I must first emphasize that we recognize clearly the limits 
of our involvement in Colombia. Our roles are limited to providing 
training, technical advice and equipment support to Colombia's security 
forces exclusively for counterdrug operations. The strict prohibition 
against involvement by U.S. forces in field operations will continue in 
the future. That said, there is no question that given the right 
resources and proper training, the Colombian military can be effective 
against the narcotraffickers which increasingly have symbiotic links to 
the Revolutionary Armed Forces of Colombia (FARC), National Liberation 
Army (ELN), and paramilitary organizations. Timely intelligence, 
aggressive planning and execution, superior mobility, and effective 
leadership can collectively unhinge the narcotrafficking operations and 
cede the initiative to Colombian authorities. Specifically, the 
Government of Colombia (GOC) must increase its offensive military 
capability and clearly demonstrate tactical and operational superiority 
on the battlefield. The GOC must also redress the needs of more than 
three and a half million rural and displaced Colombians by developing 
the infrastructure of rural areas, providing viable economic 
alternatives to illicit drug production, and simultaneously occupying, 
securing, and establishing sovereignty over contested areas of the 
countryside on a permanent basis. This is a fight that can be won.
                   plan colombia funding allocations
    Question. The proposed assistance to Plan Colombia seems to devote 
much more resources to counter-insurgency efforts in remote areas than 
to interdiction on roads and in the air. Wouldn't it make sense to 
allocate more assets to create an effective cordon around the drug-
producing areas, cutting off funds for narco-traffickers while reducing 
supplies to the United States?
    Answer. Plan Colombia comprehensively addresses the counterdrug 
(CD) problem in a coordinated, mutually supportive manner. Attempts to 
cordon drug-producing areas in Colombia by interdiction alone will not 
achieve a long-term solution to the illicit drug problem. As we have 
learned, the drug trafficking organizations adapt rapidly when we put 
pressure on key distribution nodes. Accordingly, increased emphasis to 
destroy the crops and labs must be accompanied by comprehensive 
measures to challenge the movement of drugs and precursor chemicals by 
land, air, sea, or over the vast river network. A balanced, flexible, 
broad-based response, like that proposed in Plan Colombia, is required; 
one that best uses available resources to apply pressure by 
interdiction, eradication, alternative crop development, and expanded 
government control in the growing and processing areas of Colombia.
                  plan colombia helicopter assistance
    Question. Much of the proposed U.S. assistance would be in the form 
of helicopters to ferry counter-narcotics units to remote locations. 
Don't the narco-traffickers or associated forces have the weapons to 
shoot them down? Aren't they likely to obtain them if they don't 
already have them?
    Answer. [Deleted.]
    Through this combination of training, employment and countermeasure 
suites, coupled with common sense threat avoidance measures, Colombia's 
armed forces will be able to operate effectively when and if the FARC 
acquire surface to air missiles.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                              farc control
    Question. According to reports, the FARC now controls an area 
within Colombia the size of Switzerland. The government has removed 
itself from that area as a gesture of peace, and now has little hope of 
returning without FARC approval. In the meantime, the FARC earns by 
some accounts as much as $3 million every day from drug traffickers in 
that region, and uses their territory as a staging ground for attacks 
on surrounding areas.
    Why would the FARC ever negotiate to give up this area given the 
incredible benefits they now reap from it?
    Answer. The FARC will not negotiate away the Despeje while 
operating from a position of strength. Only tactical and operational 
success on the battlefield by Colombian security forces, combined with 
Government of Colombia (GOC) comprehensive social and economic reform, 
will set the conditions for a negotiated end to the Despeje. To 
eliminate the Despeje at the negotiating table, the GOC must increase 
its offensive military capability and clearly demonstrate tactical and 
operational superiority on the battlefield. The GOC must also redress 
the needs of more than three and a half million rural and displaced 
Colombians by developing the infrastructure of rural areas, providing 
viable economic alternatives to illicit drug production, and 
simultaneously occupying and securing the contested area on a permanent 
basis.
    Question. The FARC has often claimed that it supports eradication 
efforts, while at the same time earning millions from drugs.
    Is there evidence that the FARC is cooperating with any eradication 
efforts?
    Answer. I am unaware of any evidence that the FARC is cooperating 
with eradication efforts.
                       eradication in farc areas
    Question. What incentive can we give the FARC to cooperate with 
eradication within FARC-controlled territory?
    Answer. The FARC has consistently demonstrated their unwillingness 
to cooperate with the Government of Colombia against the 
narcotraffickers. More than half of the FARC fronts receive support 
from, and provide protection to, Drug Trafficking Organizations (DTOs). 
Drug money provides a major portion of the FARC's war chest and is the 
FARC's primary source for sustaining forces, conducting combat 
operations, and purchasing weapons. Despite the symbiotic links of the 
FARC to DTOs, Plan Colombia contains the following incentives to reduce 
the increasing cultivation of coca throughout the country:
    Elements 1 and 6 of Plan Colombia.--Proposes an alternative 
development strategy promoting agricultural and other profitable 
economic activity for rural farmers. This approach is dependent on the 
Government of Colombia (GOC) re-establishing the rule of law and 
providing security (Element 3 of Plan Colombia) in the affected 
agricultural areas.
    Element 1 of Plan Colombia.--Proposes increased spending by the GOC 
to modernize the economic base and create jobs.
    Element 5 of Plan Colombia.--Funds interdiction and counterdrug 
(CD) programs to effectively obstruct the flow of resources from the 
drug traffickers to the insurgency. FARC claims of support for 
interdiction efforts have been just that claims. As Plan Colombia 
transitions to execution the FARC will have abundant opportunities to 
demonstrate their sincerity.
                          colombian drug trade
    Question. In the past, Colombia's drug trade was controlled by a 
small number of very large, very powerful cartels. Now, the manufacture 
and distribution of cocaine and heroin in Colombia is far more 
decentralized.
    How does the Supplemental Request for Colombia attempt to address 
the new challenge of going after a much more decentralized group of 
growers, manufacturers and distributors of illegal narcotics?
    Answer. The difficulty of locating, tracking, and intercepting drug 
traffickers throughout the Andean Ridge is exacerbated by the 
proliferation of sophisticated Drug Trafficking Organizations (DTOs). 
The DTOs are smaller, more adaptable, and more mobile than traditional 
cartels, complicating intelligence collection efforts and making them 
more difficult to target. In addition, many DTOs have symbiotic links 
to the Revolutionary Armed Forces of Colombia (FARC) and National 
Liberation Army (ELN), and para-military organizations. More than half 
of the FARC fronts and roughly one-fourth of the ELN fronts receive 
support from, and provide protection to, DTOs. The key to attacking the 
decentralized illicit drug trade is to target specific nodes that, when 
removed, will have a negative impact on the industry as a whole. The 
supplemental spending bill supports this strategy by assisting the 
Colombians in establishing and enhancing basic military and police 
capabilities such as tactical air lift; ground, air, and riverine 
interdiction, and intelligence collection and dissemination. U.S. 
Southern Command, in conjunction with the Defense Intelligence Agency 
and the Joint Warfare Analysis Center, is currently conducting an 
analysis of the decentralized illicit drug industry to determine 
vulnerable critical nodes. Results of this analysis will form the basis 
of the U.S. Government's ``way ahead'' in advising Colombia on the most 
effective use of the new capabilities provided through the supplemental 
funding bill.
                         alternative production
    Question. The country of Peru used to be the world's number one 
cocaine producer, but in recent years production has fallen quite a 
bit--down 26 percent in 1998 alone, down 56 percent overall between 
1995 and 1998. Now, however, prices for coca leaves have skyrocketed 
and some are worried that the temptation for farmers will be too great.
    Similarly, the Bolivian government has targeted coca production 
with serious eradication efforts in recent years, and the State 
Department now predicts that illegal coca production in that country 
may have fallen below 10,000 hectares in 1999, from almost four times 
that amount just a year before.
    Question. What alternatives have been provided to Peruvian and 
Bolivian farmers to ensure that they will not now return to growing 
high priced coca leaves, and what will we do in Colombia to provide 
those alternative crops?
    Answer. The United States Department of State (DoS) administers the 
Alternative Crop Development Program, and I defer to them to address 
the specific incentives provided to Peruvian, Bolivian and Colombian 
coca growers. However, I can assure you that this program is extremely 
important to our regional counterdrug effort. Alternative crop 
development programs have complemented aggressive eradication efforts 
in the successful reduction of coca cultivation in Peru and Bolivia 
over the past five years. Despite the increased price of coca leaf from 
new drug markets in Europe and elsewhere, Peru was able to reduce total 
area under coca cultivation by over 12,000 hectares during 1999. Much 
of this success is attributable to a successful alternative development 
program. These programs are also important because they reduce the 
number of violent confrontations among displaced coca farmers and 
provide families legitimate economic opportunities.
                    human rights abuses in colombia
    Question. Many of us are concerned about the potential for human 
rights abuses in Colombia. I understand that the situation is getting 
better, but at the same time a number of human rights groups have 
alerted us that there are still significant problems--particularly with 
continuing links between drug-financed paramilitary groups and members 
of the military. According to the Human Rights Watch World Report 2000, 
``cooperation between army units and paramilitaries remained 
commonplace'' in late 1999. The Report claims that paramilitaries kill 
suspected guerillas, delivering them to the army in return for weapons.
    How much progress has been made in ensuring that the military is 
separate from the rogue paramilitaries throughout Colombia?
    Answer. While Colombia's political and military leaders openly 
acknowledge evidence of some security force cooperation with the 
paramilitaries, they attest that cooperation is neither prevalent, 
institutionalized, or tolerated. President Pastrana, Minister of 
Defense Ramirez, and Armed Forces Commander General Tapias have 
publicly pledged to combat the illegal self-defense groups and punish 
all Government of Colombia (GOC) security force members found guilty of 
collaborating with them. We continue to see evidence of this 
commitment. In February, Vice-President Bell formed a minister-level 
commission to coordinate the state's efforts against the self-defense 
groups. The President will soon sign a decree authorizing summary 
dismissal of any military person implicated in paramilitary 
collaboration. In April 1999, two general officers were forcibly 
retired for alleged links to paramilitary groups and a third general 
officer was suspended from duty for alleged links to a paramilitary 
massacre and forcibly retired in November 1999. In August 1999 another 
general officer was relieved for failure to prevent a paramilitary 
massacre. Finally, from January through September 1999, in operations 
against paramilitary forces, Colombian security forces killed 37, 
captured 188 and netted numerous caches of illegal weapons. The U.S. 
Department of State has documented in its annual human rights report 
significant progress by the Colombian military in steadily reducing the 
number of reported violations by Government security forces. 
Specifically, the number of confirmed human rights abuses attributed to 
the Colombian Security Forces has declined from 54 percent in 1993 to 2 
percent in 1999. Plan Colombia ensures that the Colombian military will 
have the required resources and government support to sustain their 
efforts to eliminate human rights violations.
                             fourth brigade
    Question. Can you comment specifically on allegations that the 
Medellin-based Fourth Brigade has improper dealings with the 
paramilitaries commanded by Carlos Castano, who has apparently admitted 
to financing his operations from the coca trade?
    Answer. I do not have the facts to comment authoritatively on these 
allegations nor can I confirm their reliability. [Deleted] about Fourth 
Brigade's relationship with illegal self-defense groups comes from the 
press, human rights organizations, and the Government of Colombia.
                      coca production in colombia
    Question. Coca production in Colombia has doubled in the past 
decade, and recent estimates have indicated that production may be 
increasing at even higher rates due to the increased productivity of 
new crops and a lack of eradication capability.
    One of the reasons eradication efforts are falling short may be the 
continuing delays in opening the Tres Esquinas airfield in Southern 
Colombia.
    Do you have any idea when that airfield will be ready to open for 
eradication operations?
    Answer. The airfield at Tres Esquinas is open and eradication 
operations are being conducted; however, the Government of Colombia's 
(GOC) eradication efforts are hampered by three factors:
  --Lack of organic capability to effectively locate and attack fields 
        under cultivation
  --New strains of coca with increased potency that can be harvested 
        multiple times in a growing season
  --Inadequate security in support of eradication operations, 
        particularly in the Putumayo and Caqueta regions.
    The proposed supplemental will significantly enhance GOC 
eradication efforts by funding the training and equipping of the 
Counternarcotics Brigade. The mission of the Brigade will be to conduct 
offensive ground and air mobile counterdrug operations in conjuction 
with the Colombian National Police (CNP). These operations will be 
focused on the principal coca producing regions of Putumayo and 
Caqueta. To improve the effectiveness of aerial eradication operations 
from Tres Esquinas airfield, the GOC is expanding the aircraft parking 
ramp, increasing the number of helicopter pads, and extending the 
runway by 480 meters. These improvements will be incrementally 
completed by April 2001.
                        air interdiction efforts
    Question. When the U.S. assisted in a concerted effort to stop the 
``air bridge'' between Peru and Colombia, which provided much of the 
raw coca used in cocaine production, that air bridge was decimated. 
However, the delays in the Tres Esquinas airfield, the lack of progress 
outfitting planes for interdiction efforts, and a large gap that may 
allow planes to skirt current controls and simply re-route through 
Brazil may have so far rendered similar efforts in Colombia fruitless.
    What is being done, in this plan and in general, to move forward on 
air interdiction efforts similar to those that were so successful in 
Peru?
    Answer. We are not satisfied with the level of U.S. support to air 
interdiction operations throughout the Source Zone. Since 1998, three 
Department of Defense (DOD) Citation aircraft have flown [deleted]. We 
have to do better. The number one limitation to providing optimum air 
interdiction support to Colombia is a shortage of the right assets. 
Since January 1999, only one E-3 AWACS [deleted] has been available to 
USSOUTHCOM, due to competing higher priorities in other theaters. We 
need more than two times this number of missions. USCS provides P-3 
Airborne Early Warning (AEW) aircraft for approximately [deleted] 
missions in the Source Zone per month, again inadequate for consistent 
and effective interdiction. The closing of Howard Air Force Base also 
affects our level of support to Colombia's interdiction program. 
Currently, only the Curacao Forward Operating Location (FOL) is capable 
of supporting the AWACS which geographically precludes full coverage of 
the Source Zone. Once additional operational and safety improvements 
are made at our FOL in Manta, we will be able to operate the AWACS out 
of it and effectively extend detection and monitoring coverage into the 
Source Zone. USSOUTHCOM has several other initiatives underway to 
provide more effective U.S. support to Source Zone interdiction 
efforts:
    Forward Operating Sites (FOS).--We are surveying airfields in 
Colombia and Peru next month (April 2000) to identify possible forward 
operating sites. These sites will allow highly capable D&M aircraft to 
deploy for short expeditionary operations with minimum personnel and 
equipment footprints.
    USCS Deployments.--Since August 1999, USCS has deployed P-3 AEW 
aircraft three times to Peru in support of air interdiction operations. 
[Deleted.]
    Focused Air Interdiction Program.--In February of this year, we 
commenced a focused southern Colombia air interdiction program that 
will continue through June 2000. This program is designed to work 
specifically with Partner Nations. We will review lessons learned in 
June and develop a sustained program to capitalize on the coordinated 
efforts of DOD, the Interagency, and our Partner Nations.
    Colombia Aircraft Upgrades.--The proposed supplemental funds air-
to-air radar and upgrades the communications package for two of the 
Colombian Air Force's (COLAF) C-26 Merlin aircraft. These modified 
aircraft will provide the COLAF the capability to track and intercept 
aircraft moving cocaine from inland laboratories to the Colombian 
coasts for transshipment to the United States. The supplemental also 
improves COLAF tactical surveillance and intelligence capabilities by 
providing Forward-Looking Infrared Radar (FLIR) for low-altitude, long-
duration reconnaissance aircraft.
    Ground Based Radars.--TPS-43 radar systems at Iquitos, Peru and 
Leticia, Colombia transmit critical position and altitude information 
on suspected drug trafficking aircraft. The proposed supplemental 
improves collection from ground-based radars (GBR) by funding upgrades 
to current GBR's and fielding an additional one at Tres Esquinas. 
Additionally, the Relocatable Over the Horizon Radar (ROTHR) in Puerto 
Rico comes on line this spring and will complement the above systems in 
detecting and tracking suspicious aircraft.
                       NONDEPARTMENTAL WITNESSES

STATEMENT OF AMBASSADOR LUIS ALBERTO MORENO, COLOMBIAN 
            AMBASSADOR TO THE UNITED STATES
    Senator McConnell. Our next witness is Ambassador Moreno, 
Luis Alberto Moreno, the Ambassador of Colombia to the United 
States.
    We welcome you here, Mr. Ambassador. I hope we can--since 
we are kind of running late here, I hope we can keep your 
statement rather short. And we will put the entire statement in 
the record.
    Ambassador Moreno. Thank you very much, Mr. Chairman and 
distinguished members of the committee. I am pleased to appear 
before you today to express my government's views on the 
administration's proposed program of emergency supplemental 
assistance to Colombia.
    This morning I would like to urge your support of this 
proposal, to hear your views and to answer any questions you 
may have. I plan to emphasize the following key factors that 
merit your consideration: the proposed assistance is urgently 
needed. The increased assistance supports a well conceived 
comprehensive strategy. We are asking the United States to help 
provide us with tools to do the job of fighting drugs, not to 
intervene under internal conflict.
    U.S. assistance will supplement the much larger commitment 
of resources by Colombia and other members of the international 
community.
    This assistance would also support a strategy that is 
accurate, equally on commitments to reduce drug production and 
trafficking, to achieve peace, to protect human rights and to 
promote the rule of law in our country.
    I am certain you have read reports in today's press 
regarding alleged links between the military and illegal arms 
groups in Colombia. My government is confronting this issue 
directly. In fact, much of the data from our human rights 
report cited in these articles comes from the Colombian's 
prosecutor's office. We are investigating these allegations of 
links between military personnel and illegal arms groups. And 
we will continue to take strong legal action against any 
individuals found to have such links.
    Since President Pastrana entered office in late 1988, we 
have take aggressive steps to protect human rights, including 
the dismissing of senior military officials with poor human 
rights records; selecting a chief of the armed forces with a 
strong commitment to fighting human rights abuses; and 
declaring and enforcing a strict human rights policy that does 
not tolerate any links between the military and the illegal 
arms groups.
    President Pastrana was elected on a platform to achieve 
peace in Colombia. But upon entering office, he faced the 
challenges of restoring economic growth and confronting a 
booming drug trade. President Pastrana has taken bold steps to 
address these inter-related problems.
    First, we have embarked on a path towards peace. We hope to 
achieve peace by showing the guerrillas a non-violent way to 
enter Colombian society. At the same time, our negotiating 
position will be backed by the strength of our country's 
institutions, including the military.
    Secondly, and equally important, we have moved with 
determination to restore the trustworthiness of our military 
leadership and the effectiveness and the morale of the troops.
    Third, we have expanded Colombia's commitment to combating 
the drug trade. And President Pastrana has also attacked the 
economic ills that are afflicting Colombia.
    Finally, to consolidate and preserve all of the expected 
result of our strategy, we must focus on strengthening 
Colombia's democratic institutions. We are working to improve 
the accountability and effectiveness of our courts, make local 
governments more responsive to citizen's needs, and to expand 
educational and economic opportunities throughout Colombian 
society.
    In spite of the gravity of our problems, we are very 
optimistic. We see the problems clearly and have the will to 
find and implement necessary solutions. These solutions are 
embodied in Plan Colombia, a comprehensive, integrated strategy 
to address Colombia's inter-related problems.
    Plan Colombia seeks to advance to peace process, improve 
the protection of human rights, strengthen the economy, enhance 
counter-drug programs, and promote democratization and social 
development.
    The Plan also calls for a total expenditure of $.75 billion 
over 3 years. The larger portion of this cost will be borne by 
Colombia--$4 billion directly by its resources and an 
additional $800 million in loans from the international 
financial institutions. The Clinton Administration's proposal 
of $1.6 billion in assistance, and we are also seeking funds 
from the international community.
    In this regard, I am pleased to announce that early this 
summer in Spain, there will be a donor's conference of European 
Union members. We are confident that we will also attract a 
level of the support that we require.
    The assistance package proposed by the Clinton 
Administration is weighted heavily in favor of the kind of 
assistance the United States alone can provide. In large part, 
the assistance package is designed to give Colombia the tools 
we need to more effectively fight drug production and 
trafficking.
    It will enable the Colombian government to bolster counter-
drug activities in southern Colombia. And with U.S. assistance, 
we will establish two new counter-narcotics battalions in the 
Colombian military.
    We are seeking aid from the United States to bolster our 
counter-drug programs, not to help us combat guerrillas. 
President Pastrana has repeatedly made it clear that Colombia 
is not seeking and will not accept any direct U.S. military 
intervention in our internal conflict.
    The U.S. assistance we need to implement Plan Colombia is 
broader than counter-drug assistance alone. The aid package 
provides for humanitarian assistance to displace persons, 
funding for alternative economic development programs, and 
assistance to help the Colombian government improve human 
rights and other rule of law programs.
    Before I conclude, I would like to explain why we believe 
this Committee should support the administration's proposals. 
The war on drugs is not a war in Colombia. It is a war that is 
being fought, and must be fought, throughout the world.
    It is true that much of the cocaine and heroine consumed in 
the United States is produced in Colombia. No one regrets this 
more than the nearly 40 million law-abiding and peace-loving 
citizens of Colombia.
    We have a responsibility to ourselves, to our children, and 
to our neighbors, such as the United States, to stop the 
scourge of illegal drugs. It can also be said that most of the 
cocaine and heroine we are talking about is purchased and 
consumed illegally here in the United States.
    We know that this reality is no less regrettable for the 
United States than it is for Colombia to be a source for drugs. 
And we recognize and appreciate the costs and sacrifices made 
in the United States in the name of treatment, prevention, and 
law enforcement.
    Our countries share the terrible burdens that illegal drugs 
place on our people. General McCaffrey stated recently that 
over 50,000 Americans die each year due to drug abuse. At the 
same time, successive generations of Colombian children are 
growing up in a country where profits from illegal drugs fuel 
daily violence, weaken government institutions, and finance 
terrorist activities that threaten human rights and the future 
of our democracy.

                           prepared statement

    I urge you to support the administration's proposal. I 
appreciate to have the attention to all the views, and I am 
happy to answer any of your questions.
    [The statement follows:]
          Prepared Statement of Ambassador Luis Alberto Moreno
Introduction
    Chairman McConnell, Senator Leahy, distinguished Members of the 
Subcommittee, I am pleased to appear before you today to express my 
government's views on the Administration's proposed program of 
emergency supplemental assistance to Colombia. This morning I would 
like to urge your support of this proposal, to hear your views, and to 
answer any questions you may have. I plan to emphasize the following 
key factors that merit your consideration:
  --The proposed assistance is urgently needed to address the problems 
        and responsibilities our countries share due to drug 
        trafficking and consumption of illegal drugs;
  --The increased assistance supports a well-conceived, comprehensive 
        strategy based on the strong cooperation of our governments;
  --We are asking the United States to help provide us with tools to do 
        the job of fighting drugs, not to intervene in our internal 
        conflict;
  --The U.S. assistance will supplement a much larger commitment of 
        resources by Colombia and other members of the international 
        community; and, most importantly:
  --The assistance will support a strategy that is anchored equally on 
        commitments to reduce drug production and trafficking, to 
        achieve peace, to protect human rights, and to promote the rule 
        of law in our country.
    First, however, I would like to address a related issue. I am 
certain you have read reports in today's press regarding alleged links 
between the military and illegal armed groups in Colombia. My 
government is confronting this issue directly. In fact, much of the 
data from a human rights report cited in these articles comes from the 
Colombian government's prosecutor's office. We are investigating these 
allegations of links between military personnel and illegal armed 
groups. And we will continue to take strong legal action against any 
individuals found to have such links.
    Since President Pastrana entered office in late 1998 we have taken 
aggressive steps to protect human rights, including: (1) dismissing 
senior military officials with poor human rights records; (2) selecting 
a chief of the armed forces with a strong commitment to human fights; 
and (3) declaring and enforcing a strict human rights policy that does 
not tolerate any links between the military and illegal armed groups.
Conditions Confronting Colombia Today
    President Pastrana was elected on a platform to achieve peace in 
Colombia. But upon entering office he faced the challenges of restoring 
economic growth and confronting a booming drug trade. President 
Pastrana has taken bold steps to address these inter-related problems.
    First, we have embarked on a path toward peace. For the first time 
in forty years, we have a framework and agenda for the negotiations. We 
hope to achieve peace by showing the guerrillas a non-violent way to 
enter Colombian society. At the same time, our negotiating position 
will be backed by the strength of our country's institutions, including 
the military.
    Second, and equally important, we have moved with determination to 
restore the trustworthiness of our military leadership and the 
effectiveness and morale of our troops. I have already discussed my 
government's strong commitment to human rights enforcement. This policy 
has had results. Allegations of human rights abuses against the 
military have decreased dramatically. Still, we recognize that we must 
continue to do more to protect human rights.
    Third, we have expanded Colombia's commitment to combating the drug 
trade. We have continued eradication and interdiction efforts in close 
cooperation with the United States. We have begun to extradite drug 
traffickers to the United States. We will continue to do so. Important 
successes, however, such as the eradication of nearly 130,000 acres in 
1999 and arrest of several major traffickers as part of Operation 
Millennium do not obscure the fact that there is no miracle cure. We 
need a sustained, comprehensive approach and we have a long way to go.
    President Pastrana has also attacked the economic ills that afflict 
Colombia. With unemployment rising and investment flows threatened, our 
government has made difficult but necessary choices to stabilize the 
economy. We have reduced spending, instituted banking sector reforms, 
accelerated privatization programs, strengthened our pension programs, 
and adopted targeted stimulus programs to create jobs and secure the 
social safety net. These measures, coupled with a strategy to increase 
trade and investment, will provide needed opportunities for the poorest 
Colombians and those displaced by internal violence.
    Finally, to consolidate and preserve all of the expected results of 
our strategy, we must focus on strengthening Colombia's democratic 
institutions. We are working to improve the accountability and 
effectiveness of our courts, make local governments more responsive to 
citizen's needs, and to expand educational and economic opportunities 
throughout Colombian society.
The Need for U.S. Assistance and International Help
    In spite of the gravity of our problems, we are very optimistic. We 
see the problems clearly and have the will to find and implement 
necessary solutions. These solutions are embodied in Plan Colombia, a 
comprehensive, integrated strategy to address Colombia's interrelated 
problems. Plan Colombia seeks to advance the peace process, improve the 
protection of human rights, strengthen the economy, enhance counter-
drug programs, and promote democratization and social development.
    President Pastrana's Plan Colombia calls for a total expenditure of 
$7.5 billion over 3 years. The larger part of this cost will be borne 
by Colombia--$4 billion directly from Colombia's resources and an 
additional $800 million in loans from international financial 
institutions. The Clinton Administration has proposed $1.6 billion in 
assistance, and we are seeking additional funds from the international 
community. In this regard, I am pleased to announce that Spain will 
host a donor's conference for European Union members this June. We are 
confident that we will attract the level of support required.
The Nature of U.S. Assistance Needed
    The assistance package proposed by the Clinton Administration is 
weighted heavily in favor of the kind of assistance the United States 
alone can provide. In large part, the assistance package is designed to 
give Colombia the tools we need to more effectively fight drug 
production and trafficking. It will enable the Colombian Government to 
bolster counter-drug activities in southern Colombia. With U.S. 
assistance, we will establish two new counternarcotics battalions in 
the Colombian military. These special military units, together with an 
existing, counter-narcotics battalion, will move into southern Colombia 
to protect Colombian National Police (CNP) forces as they undertake 
counter-drug missions. Members of these counter-narcotics battalions 
will receive extensive human rights education and training. The aid 
package provides additional funding to enhance the counter-drug efforts 
of the CNP.
    We are seeking aid from the United States to bolster our counter-
drug programs, not to help us combat guerrilla forces. Our success 
against drug production and trafficking will weaken these guerrilla 
forces, as they rely upon the drug trade for equipment and other 
support. But President Pastrana has repeatedly made clear that Colombia 
is not seeking and will not accept any direct U.S. military 
intervention in our internal conflict.
    The U.S. assistance we need to implement Plan Colombia is broader 
than counter-drug assistance alone. The aid package also provides 
humanitarian assistance to displaced persons, funding for alternative 
economic developments programs, and assistance to help the Colombian 
Government improve human rights and other rule of law programs. The 
Colombian Government and other members of the international community 
will provide additional assistance in these areas. As a result, the 
profile of proposed U.S. assistance does not accurately reflect the 
overall profile of Plan Colombia or the relative budgetary emphasis 
given to each function under the Plan.
Why the Congress Should Approve the Package
    Before I conclude, I would like to explain why we believe this 
Committee should support the Administration's proposal. The war on 
drugs is not a war in Colombia. It is a war that is being fought and 
must be fought throughout the world.
    It is true that much of the cocaine and heroine consumed in the 
United States is produced in Colombia. No one regrets this more than 
the nearly 40 million law-abiding and peace-loving citizens of 
Colombia. We have a responsibility to ourselves, to our children, and 
to our neighbors such as the United States to stop the scourge of 
illegal drugs. It also must be said that most of the cocaine and 
heroine we are talking about is purchased and consumed illegally here 
in the United States. We know that this reality is no less regrettable 
for the United States than it is for Colombia to be the source of the 
drugs. And we recognize and appreciate the costs and sacrifices made in 
the United States in the name of treatment, prevention, and law 
enforcement.
    It does illustrate that our countries share the terrible burdens 
that illegal drugs place on our people. General McCaffrey stated 
recently that over 50,000 Americans die each year due to drug abuse. At 
the same time, successive generations of Colombian children are growing 
up in a country where profits from illegal drugs fuel daily violence, 
weaken government institutions, and finance terrorist activities that 
threaten human rights and the future of our democracy.
    I urge you to support the Administration's proposal.
    I appreciate your attention to my views. I would be pleased to 
answer your questions.

    Senator McConnell. Thank you, Mr. Ambassador. Your 
president has courageously declared the war on narco-
traffickers and certainly we all applaud that. Last year, in an 
effort to encourage the FARC to participate in a peace process, 
your president agreed to a demilitarized zone.
    The effect of which was to concede control of a region the 
size of Switzerland to the guerrillas. Do you believe the 
guerrillas used this region as a base for drug production and 
trafficking, and would the push into southern Colombia after 
that decision, and if not, what is the likelihood that the DMZ 
simply becomes a safe haven for traffickers?
    Ambassador Moreno. Let me begin by saying that as General 
Wilhelm said here, the cocaine that is reportedly grown in the 
demilitarized zone is no more than 12 percent of the total 
cocaine grown in Colombia. Secondly, this area, and it is 
important to note the size of our country.
    Colombia is about the size of Texas and California 
combined. This area is a very remote area where there has been 
very limited government presence, and it is basically an area 
where the guerrillas have typically moved.
    There is one thing President Pastrana offered during the 
campaign. It is a unilateral concession, to bring the 
insurgents to the table of negotiations. And it was a bold move 
and a risky move, but this was something that Colombian people 
voted upon. Since that happened, I am happy to say that the 
negotiations with the FARC insurgents have been moving along in 
a positive way.
    We all know that making peace is more difficult than making 
war. But the fact of the matter is that there were two or three 
occasions that we identified labs in the demilitarized zone 
which were later taken by our national police. And we will 
continue to monitor any such events.
    But the purpose of our government is to keep this zone 
inasmuch as the negotiations proceed, as they have been 
proceeding. This is, again, as I said initially, a unilateral 
concession. The government can take it away any minute it 
wants, and that is what is really important, Senator.
    Senator McConnell. Speaking of insurgencies, moving to a 
different one. Last week your government announced a safe haven 
policy for the ELN. How does that decision fit into an 
aggressive counter-narcotics strategy?
    Ambassador Moreno. Well, the area that has been discussed 
with the ELN, first of all, there is not an agreement with ELN, 
and I am not prepared to answer any of the specifics on any of 
the negotiations. As you well know, any kind of peace 
negotiations, to be successful, must be treated in a secret 
fashion.
    However, what occurred last week was basically a 
negotiation, or rather an agreement, between the population in 
the north of Colombia where initially there had been a 
discussion where a demilitarized zone or transition zone will 
take place.
    And basically what was agreed here was that there would be 
inputs from the society here, and also that there would be 
international monitoring units as well as Colombian. So, it is 
basically having much more than what exists today in the south 
of Colombia, where the FARC has this zone.
    Senator McConnell. I am just going to take one more 
question, because we have other Senators here who want to 
propound questions to you, Mr. Ambassador. Plan Colombia calls 
for a total of $7.5 billion, $4 billion of which comes from 
your government.
    What portion of the $4 billion from your government are 
actually funds from the Inner-American Development Bank and the 
other international financial institutions to which the United 
States is a big contributor?
    Ambassador Moreno. Basically, as I explained earlier in my 
comments, the $4 billion is a direct appropriation over the 3 
years, and there's $800 million that comes from the 
international financial institutions. One of the possibilities 
we are looking right now is to precisely increase that to about 
$900 million, which was something that Colombia negotiated, an 
International Monetary Fund (IMF) agreement, to invest in a 
social safety net.
    Senator McConnell. Thank you, Mr. Ambassador. Senator 
Inouye.
    Senator Inouye. Thank you very much. Mr. Ambassador, I can 
assure you that all of us are quite concerned with your plight, 
and we will do our best to be of assistance. But I was quite 
intrigued by a question asked by my Chairman, Senator Stevens. 
Is it true that high school graduates are deferred from 
entering into combat situations?
    Ambassador Moreno. That is a very important question, sir, 
and let me try to explain it. We have a total army of about 
120,000 men, of which about 40,000 are called conscripts.
    These conscripts normally serve a period of no more than a 
year. In fact, at times, they are exempt if they have voted in, 
or participated in, an election. That means that there is a 
tremendous rotation.
    Under President Pastrana's leadership, he has undertaken 
the commitment to take away these conscript soldiers and change 
them for professional soldiers. However, this cannot be done in 
a years time. So, the plan is that it will be 10,000 soldiers 
of the conscripts going out every year and 10,000 professional 
soldiers entering every year.
    Secondly, we also changed the fact that soldiers under 18 
could not be part of the Colombian armed forces and whoever 
were under 18 were dismissed from the Colombian armed forces. 
So, we are moving to have a professional army and there is a 
lot of work being done through fast track legislation, 
precisely to be able to fire and hire people inside our 
military; also, to have a lot of work in the anti-corruption 
area; and finally, all of the modernization.
    These are some of the building blocks that we have been 
instituting, as well as putting human rights offices inside the 
military. There used to be, when President Pastrana entered 
government, about 100 human rights offices inside the military. 
They are now up to 181.
    Senator Inouye. But if one has a high school diploma, he is 
deferred from combat activities?
    Ambassador Moreno. That has been the case, and this is 
exactly what we are changing, sir. Yes.
    Senator Inouye. With all the new equipment, sophisticated 
equipment, you would need men and women who have training or 
are trainable, with some degree of educational background, do 
you not think so?
    Ambassador Moreno. Absolutely, Senator. And the case with 
these three counter-narcotics battalions is that they are 
varied units, that they are professional soldiers with at least 
5 years experience, precisely to work in this area. And of 
course, when it comes to helicopters, it means that you need to 
train at least three different crews for each of the 
helicopters to serve in their different nations.
    Senator Inouye. I have other questions, if I may submit 
them.
    Senator McConnell. Thank you, Senator.
    Senator Stevens.
    Senator Stevens. Mr. Chairman, I will have some other 
questions, also, to submit to the formal panel.
    Mr. Ambassador, as a friend, and you are a good friend, 
personally and to our country, I was very impressed with your 
President Pastrana and the presentation you made to our 
committee. You made it, as I said at the time, a great many 
friends. The deeper we go into our plan to help you, the more 
some of us think that it is flawed.
    Tell me about the time frame for these battalions. How soon 
do you expect those battalions to be ready to start this 
eradication of these areas?
    Ambassador Moreno. Thank you, Mr. Chairman. And thank you 
again for the wonderful meeting you hosted for us early in 
January when President Pastrana was here. There's already a 
counter-narcotics battalion that has finished training, and it 
is ready to go. It is, today, located near the area of 
Tracicenas in the south of Colombia. And there are an 
additional two more battalions on their way.
    When President Pastrana entered office, he made a very 
tough decision, and that was that upon looking at the numbers 
of cocaine explosion, really, in the growth of cocaine, we 
went, basically, 5 years ago from about 30,000 hectors to about 
120,000 today. And if you look at the numbers of cocaine, that 
is basically the reverse of what used to be the case between 
Peru and Colombia.
    So, what President Pastrana did was to make the tough 
decision of involving our military. This is not an easy 
decision. It would not be an easy decision in any military, but 
we have no choice.
    Today, of the total budget of our country, about one-third 
is spent on military spending. Forty percent of that is devoted 
for counter-narcotics alone. So, we are also using our air 
force to do an air interdiction. And we have already started 
working on this front to be able to down planes that are 
carrying cocaine.
    And secondly, we deployed in August of last year, a very 
strong navy operation to do rivering to protect the rivers from 
where they come with the chemicals that are used to make 
cocaine itself. And also, to be able to patrol these rivers 
effectively when the cocaine paste is later taken out and flown 
out of the areas.
    So, the answer is yes, we have one battalion already 
trained, and two are in the process of being trained now, Mr. 
Chairman. And we have two more boats. I'm sorry.
    Senator Stevens. Mr. Ambassador, as you look at this 
operation, the president told us that your military has gone 
through a substantial change also. And he selected a new 
general, right?
    Ambassador Moreno. Yes, sir.
    Senator Stevens. Can you tell us anything about the 
modernization of your own military during this period?
    Ambassador Moreno. Yes, sir. Some of the things I just 
mentioned a little while ago. First of all is the change of the 
conscripts to professional soldiers to have a totally 
professional military by the time President Pastrana's term is 
over. That means taking away 40,000 conscripts into 
professional soldiers, which implies a substantial budget 
increase.
    Senator Stevens. Yes. We know about that. The difference 
between conscripts and volunteers.
    Ambassador Moreno. Yes. So, that's one. Secondly, in anti-
corruption, there is a whole program of anti-corruption taking 
place inside the military.
    Third, we have contracted a study with National Public 
Research Institute (NPRI) to do a lot of the modernization and 
changes in command and control that need to take place. And 
last, but not least, is the human rights training that every 
soldier in the Colombian military is undergoing. And in this we 
have trained close to 78,000 members of our military in doing 
this precise training. And also to, for instance, in the 
counter-narcotics battalions, they went through a very 
impressive program of human rights training as well.
    Senator Stevens. One last question. Senator McConnell 
mentioned something that many other senators have talked to me 
about, and that is the possibility of an area-wide plan that 
would put the pressure on the narcotic traffickers in your 
country.
    The feeling is they will go back to Peru or go somewhere 
else, and we are going to see a kaleidoscope. What do they call 
it? I'm thinking of the thing down at the beach where you try 
to hit that----
    Staff. Wack-o-mo.
    Senator Stevens. Wack-o-mo. You hit there, it pops up 
there.
    Staff. Yes.
    Senator Stevens. You never can get them all down. But is 
there any plan for an area-wide agreement? Is your country 
trying to seek area-wide participation in this attempt to 
eradicate this scourge down there?
    Ambassador Moreno. Well, we will definitely work very 
closely with our neighbors, and especially in the area of 
interdiction. It is critical to work with all of the countries. 
Especially we are working with Ecuador. And most of the high 
growing area that we have today is pushed to the south involves 
very much the monitoring on the Ecuadorian side.
    It is not easy to quickly transplant the cocaine crops from 
one place to the next, because it takes about 18 months before 
any one crop begins. So, the monitoring is in place. We cannot 
prevent this kind of situation from occurring, but I agree with 
you that the regional concept is very important.
    Senator Stevens. Thank you.
    [The information follows:]
Proposal for the Increase of Financial Aid From the U.S. Government to 
                   Ecuador in the Fight Against Drugs
    Ecuador, located between Colombia and Peru, suffers from somewhat 
different aspects of the drug problem. Due to its very low production, 
Ecuador has been considered as a ``transit'' country and not regarded 
as a priority. Nevertheless, the data does not support this approach.
    Recent data suggests that unfortunately Ecuador is becoming active 
in money laundering, deviation of chemicals used in drug production and 
as a collection point for internal and external distribution.
    The drug problem today reveals that crimes such as money 
laundering, drug trafficking are connected and simultaneous. Therefore, 
it may be misleading to brand some countries as producers and others as 
transit or consumers. To recognize the responsibility of each is 
important, but insufficient if the burden is not appropriately shared.
    The drug problem has never been about frontiers or Nations. This 
illegal activity has always been international, dynamic and innovative 
in the use of technology, and it may move from one location to another. 
Therefore, we should not single out one country as the source of the 
problem, nor should we expect its solution to come from just one 
Nation, but rather from the combined efforts of the countries involved.
    Ecuador's Law 108 reiterates the will and determination to meet the 
formidable challenges to fight drugs; the National Plan constitutes the 
main operative strategy to identify the actions to be implemented in 
order to reduce drug supply and demand. It has guidelines for each 
sector and as well as parameters for foreign aid and cooperation. It is 
also the basic reference for the National Council to Control Drugs, 
CONSEP.
    In its drafting process this law required an active participation 
and consensus of all institutions involved in the fight against drugs. 
Thus, apart from being a document outlining principles and policies, 
the law constitutes an effective working tool for all public and 
private institutions engaged in the fight against drug trafficking.
    It is essential to acknowledge the principle of shared 
responsibility as the most effective and fair element to face this 
transnational phenomenon.
    For the 1999-2003 five year period, through its National Anti-Drugs 
Plan, Ecuador will develop programs aimed at: preventing and reducing 
drug consumption; controlling illegal drug production, processing and 
trafficking; promoting research and raising awareness of drug related 
issues; curbing money laundering, managing assets seized in drug 
operations.
    The CONSEP, integrated by representatives of government and private 
institutions involved in the fight against drugs, has requested aid 
from the Inter-American Commission for Drug Abuse Control, to convene a 
Consultative Group and a Donors Conference to obtain funding for the 
National Anti-Narcotics Plan.
    The support of the United States is crucial for the full 
implementation of the Plan, as part of the burden-sharing response of 
the international community. This support should be proportionate to 
the magnitude of the challenges faced by the region and its members.
                       a new approach in ecuador
    The northern frontier, which runs for approximately 580 km through 
the Provinces of Esmeraldas, Carchi and Sucumbios, and mostly along the 
Putumayo River, has very particular characteristics that demand a 
specific strategy. The strategy should include activities for a 
sustained and sustainable development.
    The region is open 24 hours for border crossing, with patrol points 
in the international bridge of Rumichaca and in the near future in San 
Miguel bridge. However, along the border there are many informal 
crossing points used for legitimate trade, but that may also be used by 
groups linked to drug operations and related crimes.
    Drugs such as heroine, cocaine in its various forms, and marihuana 
enter the Ecuadorian territory through land, air and sea.
    The jungle in the northeastern section of the country, is used by 
drug cartels, mainly foreign, to evade police control. The influence of 
the guerrillas from Colombia has limited police action in the area. It 
has also been detected that due to a more severe control of chemicals 
used in the production of drugs, the criminal organizations use 
chemicals not subject to control that undergo a process to obtain 
controlled substances.
           the ecuadorian outlook in the reduction of supply
    The data collected by the Anti-Narcotics Division of the National 
Police, a recently created unit, shows that in recent years the volumes 
of drugs seized have increased, as well as the number of arrests 
related to drugs. However, it is difficult to assess if the drug 
available for export has decreased correspondingly.
    We require a regional approach to this issue, supported by 
agreements, allowing coordination among the various countries involved 
in this fight.
    The final stage of the international drug trafficking culminates 
with money laundering, which impacts not only the economy but also the 
entire society and de-stabilizes the democratic institutions.
    In the area of money laundering, the CONSEP established the 
National Division for the Processing of Financial Information. Since 
1995, 827 individuals have been investigated for financial transactions 
judged to be unusual and reported by banking institutions. The 
investigations on the reported irregularities are being conducted by 
the Public Prosecutor.
    Given this background, Ecuador expects that the Government of the 
United States will consider an additional $32,390,000 in aid to be used 
in the implementation of the projects attached to this document which 
are part of the National Plan and constitute a priority among the 
measures to be taken by the National Police and Armed Forces of Ecuador 
in their fight against drugs in their effort to eliminate supply to the 
United States and other countries. In keeping with the principles 
outlined at the beginning of my statement, referring to the burden 
sharing approach to this hemispheric problem.
    I would like to conclude by noting that the Government of Ecuador 
fully cooperates with the Government of the United States in the fight 
against drug trafficking. The agreement signed by both Governments to 
establish the American Forward Operating Location in Manta was a 
crucial step in the hemispheric fight against drug trafficking. We are 
confident that this contribution of the Ecuadorian Government to the 
regional effort against this common threat will be dully recognized by 
both the U.S. Government and the U.S. Congress.
Problems
    Ecuador's main drug related problems are:
    Loosely-monitored airports, seaports, and road networks.
    Low capacity to control money laundering.
    Northeastern border area with Colombia is a matter of great 
concern. It is used by traffickers to move both drugs and chemicals. 
Colombian guerrilla is present near that country side of the border, 
encouraging and participating in these activities.
    This situation threatens the stability and security of the region, 
and especially Ecuador's security due to its current economic crisis 
and its closeness to guerrilla and drug trafficking operation centers 
in Putumayo region.
    The U.S. aide to Colombia will be more effective if at the same 
time it considers to reduce the risk that the problem be moved into 
Ecuadorian territory, which could be occupied by farmers to re-situate 
its coca crop fields and by producers to build up new laboratories.
    Besides that, due to its economic problems, the efforts of the 
Government of Ecuador has been not sufficient to attend the basic needs 
of the Ecuadorian population in the Putumayo region, so there is an 
increasing risk of support to the traffickers' activities from the 
Ecuadorian population living in that area.
Necessities
    Therefore, Ecuador needs aid to:
    Develop its security institutional capabilities to interdict 
illegal drugs and control chemicals deviation.
    Get equipment to interdiction operations.
    Develop counter-narcotic training programs to its police and 
military forces, as well as custom agents.
    Improve its intelligence network.
    Strengthen airport and seaport enforcement, fixed and mobile 
roadblocks, and aerial reconnaissance.
    Strengthen its judicial system and its financial investigation 
units to prosecute traffickers, seize drug assets and reduce money 
laundering.
    Implement alternative development programs, especially in the 
Putumayo region.
    Implement prevention and consumption reduction programs.

                   PROPOSAL TO INCREASE U.S. ASSISTANCE TO ECUADOR'S DRUG ENFORCEMENT AGENCIES
                      [IN ADDITION TO AID PACKAGE PRESENTED TO CONGRESS BY U.S. GOVERNMENT]
----------------------------------------------------------------------------------------------------------------
                                                                                                         U.S.
                PROJECT                                      BRIEF DESCRIPTION                         DOLLARS
----------------------------------------------------------------------------------------------------------------
          REDUCTION OF DEMAND

PREVENTION NETWORK....................  Implement government and non-government organizations in       1,500,000
                                         order to address drug consumption.
TREATMENT AND REHABILITATION OF DRUG    Offer specialized therapeutical treatment to addicts,            120,000
 ADDICTS.                                regardless of social status.
DRUG MONITORING.......................  Collect data and statistics on reduction of supply and           150,000
                                         demand of drugs.
COMMUNITY AWARENESS...................  Information campaigns through the media to raise awareness;      120,000
                                         establish an Information Center.
                                                                                                    ------------
      SUBTOTAL........................  ...........................................................    1,890,000
                                                                                                    ============
          REDUCTION OF SUPPLY

SUPPORT TO THE ANTI-NARCOTICS DIVISION  Provide support to the Anti-Narcotics Division of the          6,000,000
 OF THE NATIONAL POLICE.                 National Police, with a more efficient use of resources
                                         (financial, material and technological) aimed at
                                         fulfilling its duties and maintaining a standard of
                                         excellence.
                                        Provide infrastructure, equipment to the Anti-Narcotics
                                         Division, Precincts. Provide communication equipment, IT
                                         and computers, air, land and sea mobility, weapons and
                                         ammunition.
ANTI-NARCOTICS TRAINING CENTER........  Develop a training and specialization program for the          1,000,000
                                         operative and administrative levels.
                                        Implement the departments of Training Counseling,
                                         Multimedia and IT systems.
                                        Integrate educational programs with Police Academies and
                                         rank and file of the Police.
COMMUNICATIONS AND IT.................  Provide and test hardware and software to connect to the         500,000
                                         information system of the Joint Intelligence and
                                         Coordination Center, JICC.
                                        Develop and implement training in IT for police personnel..
CONTROL DE PRESURSORES QUIMICOS Y       Implements a system to control and track the kind, quality       500,000
 PRODUCTOS QUIMICOS ESPECIFICOS.         and amount of precursores quimicos and their use.
                                        Develop guidelines and rules for autoridades y ejecutores..
CANINE TRAINING CENTER................  Establish canine units in the North border, Provinces of       1,000,000
                                         Esmeraldas, Tulcan, Sucumbios, Controles Integrados,
                                         Puerto de Manta, Baeza y Loja.
                                        Refurbishing of canine units nationwide....................
                                        Replacement and increase of drug detecting dogs.
                                        Implement the system of passive dogs.
                                        Include a budget to feed and care dogs.
                                        Technical training to officers and troop in working with
                                         drug detecting dogs.
REINFORCEMENT OF THE INTELLIGENCE AND   Consolidate the Intelligence and Coordination Center as the    1,000,000
 COORDINATION CENTER.                    governing entity at the national level of the anti-
                                         narcotics intelligence.
                                        Implement an information network that would allow the
                                         management of strategic information in a timely fashion at
                                         the national level.
                                        Implement a process for the selection of personnel.........
                                        Carry out programs for updating and training of personnel..
REINFORCEMENT OF THE SPECIAL ANTI-      Reinforce interdiction operations in roads and highways....    1,000,000
 DRUGS MOBIL GROUP--GEMA.               Renovation of premises and supply of equipment for the
                                         Special Anti-drugs Mobil Group.
                                        Establish special anti-drug mobil groups in each district..
                                        Training in interdiction operations in roads and highways..
REINFORCEMENT FOR THE MONEY LAUNDERING  Implement financial analysis units in Cuenca, Tulcan,            500,000
 PREVENTION UNITS.                       Guayaquil and Loja.
                                        National and International link via electronic mail with
                                         private and public institutions in charge of money
                                         laundering.
REINFORCEMENT OF THE ANTI NARCOTICS     Consolidate air surveillance operations....................    6,000,000
 POLICE AIR OPERATIONS.                 Planes, helicopters, radar equipment and heliports in
                                         Sucumbios, Tulcan and Esmeraldas.
                                        Training of air personnel.
REINFORCEMENT FOR LABORATORY..........  Implement two laboratories: Cuenca and Guayaquil...........    2,000,000
                                        Provision of chemical reactives for field analysis of drugs
                                         and precursos seized in police operatives.
                                        Technological improvement of the chemical laboratory.......
                                        Training of laboratory personnel and anti-drugs operative
                                         units.
Alternative Social and Economic         Reinforcement of government actions to discourage              6,000,000
 Development.                            participation of local population in any of the drug
                                         trafficking activities by improving social, economic,
                                         education and health conditions in the Putumayo region.
Security Measures.....................  Security operations for the support of counter narcotics       5,000,000
                                         operations in the border region.
                                                                                                    ------------
      TOTAL...........................  ...........................................................   32,390,000
----------------------------------------------------------------------------------------------------------------

    Senator McConnell. OK. The limit we have--I am sorry to you 
witnesses, if you will just be patient. We have two stack 
votes. What I am going to recommend we do is recess the hearing 
and go catch one vote at the end, the next one at the 
beginning, and then we will come back. And it is my intention 
to finish up. So, please----
    Ambassador Moreno. Thank you, Mr. Chairman.
    Senator McConnell. Does anybody want to come back and ask 
further questions of the Ambassador from Colombia? If not, we 
will dismiss him.
    Senator Feinstein. Well, I had some questions, but I am 
happy to submit them.
    Senator McConnell. OK. Submit them for the record.
    Senator McConnell. Senator Domenici.
    Senator Domenici. OK. I have one and I will submit it.
    Senator McConnell. Fine.
    And, Mr. Ambassador, thank you for being here. And we will 
get to the next witness as soon as I return.
    Ambassador Moreno. Thank you, Mr. Chairman.
    Senator McConnell. My apologies. Again, Senate business is 
getting in the way of this hearing. All right. We have the 
attorney general from Ecuador and the Bolivia minister of 
agriculture.
    And we appreciate, very much, both of you gentlemen being 
with us. And why don't you go ahead with your statement in 
whichever order you determine?
STATEMENT OF DR. RAMON JIMENEZ, ATTORNEY GENERAL FOR 
            ECUADOR
    Attorney General Jimenez. Thank you, Mr. Chairman, 
distinguished members of the panel, committee. It is a 
pleasure, and an honor, to be here. I would like to start this 
short talk.
    They have told me it is about 5 minutes. It is not enough 
time to talk about the problems that are our problems, economic 
problems, social problems, with Ecuador or of any country, but 
I would like to start this by recalling the words of the late 
Senator of the United States of America, Robert Kennedy, when 
he said something like this.
    I'm translating directly from Spanish into English. ``I 
feel the things as they are, and I ask why. I dream of the 
things that are not, and I ask why not.''
    If things were as we dream they are, probably we would not 
be here discussing the drug dealing problems of the world. 
Thank you, Mr. Chairman.
    Ecuador is a country which has had, and which is having, 
very, very serious economical and social problems during the 
last 2 years. There is poverty. There is unemployment and under 
unemployment which goes up to 70 percent of the population, 
including unemployment; 14 percent of unemployment and--and the 
rest of unemployment.
    There are many causes for that, and I am not going to 
repeat them. They are well known to everybody. During the last 
years, the tragedy called the Nino Current, et cetera, many, 
many problems in that sense.
    There is a per capita income of about $1,000 per year, and 
the gross domestic product goes up to $13.6 million, which is 
less than the external debt of Ecuador. Inflation has been, 
during the last 2 years, about 64 percent and the government is 
doing a lot of efforts in order to control these things. And 
recently with the new dollarization, as we call it, dollar 
recession system of economic and monetary system.
    In effect, still, that regarding the drug problems, Ecuador 
is only a transit country. Not only various data, enough data, 
that reflects that Ecuador at present has a big problem in 
laundering, processing and distribution to the consumption 
countries of the world. And by the way, speaking about the 
consumption countries of the world, I do not think that the 
consumer countries should be only blamed for the problems of 
drugs in the world.
    They say, and I do not agree, that if there were no 
consumption, there would be no processing and there would be no 
trafficking, and there would be no plants, crops. I say that if 
there were no crops, if there were no traffic, there would be 
no consumption.
    It is a cycle. And we have to consider it as a cycle. We 
cannot individualize. We cannot put aside the countries which 
produce, and we cannot put aside the countries which, 
apparently, are only a transit country. And we cannot put aside 
the countries which only consume or which mostly consume, like 
the United States of America and Europe.
    I would say that this has to be a coordinated activity all 
over the world. Consumers, producers and transit countries.
    The government of Ecuador, all the people of Ecuador, are 
doing a lot of effort in order to fight drug dealings. There is 
the so-called law 108, which has been in effect for about 10 
years, and now it is being reformed to bring it up to date. 
Review problems that we are having, especially the great input 
into the laundering problems in Ecuador. This has been done by 
the National Council for the Control of Narcotic Drugs and 
Psychotropic Substances (CONSEP), Consejo Nacional, 
Desustoncias Estupefaciente Eficotropica, the National Council 
for drug combat.
    There is a prevention, rehabilitation and very, very strong 
control and interdiction activities. And this, in the control 
and interdiction activities, is where Ecuador needs the 
international assistance.
    And we are very, very thankful for the international 
assistance that we get from the UNDCP, the United Nations 
International Drug Control Program, and from the Inter American 
Commission for the Control of the Abuse of Drugs (SICAD) of the 
Organization of American States. But we need the help of our 
neighbors, Colombia. We need the help of Peru.
    We are finished, as you know already, about 3 years ago all 
the problems which we had were the frontier in Peru. And all 
the money that was supposed to be in the hands of the people to 
fight with Peru, we are now using it to build roads in Peru. To 
build roads between Peru and Ecuador, I mean, in joint 
programs.
    Senator McConnell. All right.
    Attorney General Jimenez. There is another frontier which 
is a problem where we have about 580 kilometers which is open 
24 hours with Colombia around the Putumayo region, which you 
already have heard about it. Some more data, Mr. Chairman. 
Important data of about 1,000 tons of cocaine production, and 
all the cycle from Colombia, 50 percent goes through Ecuador. 
And where does it go? It goes to the United States of America. 
It goes to Europe. To poison the young people of America, of 
the Americas. North America, Central America, South America. 
But especially in the consumer countries.
    In 4 years, about 1,000 persons in Ecuador, which is a lot, 
and corporations have been investigated and they have been 
sentenced, because of unusual banking transactions. And there 
we have the Unidad Para Procesamiento de Informacious Reservata 
(UPIR) or Commission of Processing of Confidential Information, 
which also belongs to the CONSEP, of which I am the president 
as attorney general, which is the special investigations 
commission for banking transactions.
    I have 24 prosecutions a year regarding drug dealings, 
which is enhanced or which are enhanced of the prosecutor 
general.
    Senator McConnell. Could I interrupt you a minute, Mr. 
Attorney General? The administration has only requested $2 
million in this supplemental that we're talking about today, 
for your country, on top of $11 million already in the budget.
    Attorney General Jimenez. Yes, Mr. Chairman.
    Senator McConnell. Yet you just testified 50 percent of the 
cocaine is going through Ecuador. Do you share my view that it 
might be appropriate to deal with this issue in a more regional 
way than the current bill that we are having the testimony on?
    Attorney General Jimenez. Definitely. I believe that it has 
to be taken as a context, as a general context. I believe in 
the dream of General Simon Bolivar--or they call him Simon 
Bolivar here in the States. The guy in Colombia is called the 
Grand Colombian, as you know, before 1830, before we got 
separated in different countries.
    I am not saying that we have made effusion, a merge between 
the countries. No. Although mergers are up-to-date in Ecuador 
now, but banking mergers in order to avoid bankruptcies. But I 
think that this has to be taken as a whole strategy, as a 
coordinated strategy.
    But everything we do in only one country, because it is the 
big producer, and I am for our, as we call it, the sister 
republic of Colombia. Everything we do, everything the 
international organizations do in order to increase the drug 
fights in Colombia will be dropping to the southern countries. 
Especially to Ecuador and Bolivia.
    And why do I say especially to Ecuador and Bolivia? Because 
in Peru, there is a very strong government run by President 
Fujimori. And he went out of the international commission of 
human rights. He decided to do so. He is not part of the 
international commission of human rights anymore. He decided to 
do so.
    We are part of the International Commission of Human 
Rights, and we, at the attorney general's office of Ecuador, 
have about 20, between 20 and 25, cases of human rights. And we 
work for human rights in all the aspects. Not only in the drug 
dealing, drug trafficking, drug fighting situation, but in all 
aspects.
    Senator McConnell. Mr. Attorney General, I apologize that 
we are running so late, but if you could wrap it up so we could 
hear from----
    Attorney General Jimenez. Sure.
    Senator McConnell (continuing). The minister in Bolivia, 
and then we will get a few questions then.
    Attorney General Jimenez. Thank you, Mr. Chairman.
    Senator McConnell. Thank you so much. Mr. Minister.
STATEMENT OF OSWALDO ANTEZANA, MINISTER OF AGRICULTURE 
            FOR BOLIVIA
    Minister Antezana. Let me begin by thanking you, Mr. 
Chairman, for conducting this timely hearing on the U.S. anti-
narcotics policy in the Andean region and for allowing my 
country to express its views regarding this very important 
matter. Bolivia, a country that was, until very recently, the 
second largest producer of cocaine in the world, undertook, in 
August of 1997, upon the swearing in of President Gonzalo 
Sanchez De Lozada, the solemn commitment to eliminate illegal 
coca production in the country by the year 2002.
    Since Bolivia began implementing its counter-narcotics 
strategy, the Dignity Plan, through education, interdiction 
operation and a broad array of law enforcement programs in 
combination with our alternative economic development projects, 
we have seen a reduction of more than 70 percent of illegal 
coca production. Progress was even faster than anticipated. 
From 33,800 hectors of illegal coca plantations in 1997 to 
9,800 hectors today.
    This translates into 250 metric tons of cocaine that will 
not be produced or exported.
    Senator McConnell. You said you think you can achieve 
complete elimination by what date?
    Minister Antezana. 2002. My country has clearly shown that 
once uncapable of victory in the war against drugs is 
attainable. That our goals seen as utopian when first 
announced, is today within reach. At this vital juncture, 
enhanced cooperation and assistance from the international 
community in support of Bolivia's continued progress is key to 
the successful completion of these efforts.
    We are entering into the most critical and complex phase of 
the Dignity Plan. After 29 months of record breaking levels of 
eradication, we are about to initiate an eradication operation 
in the Yungas, the second largest coca production area in 
Bolivia; an insulated region with a long standing tradition of 
coca use and a strong anti-government sentiment.
    It is serving the Yungas culture and religious traditions 
in regards to coca use, it will be a daunting task demanding 
increased results.
    Despite the fact that in 1999, eradication and interdiction 
efforts were conducted, we cannot discard possible flare-ups of 
social unrest in Chapare and Yungas. For example, already this 
year, there was killed a Bolivian soldier in Chapare. And in 
just in the past weeks, two more anti-narcotics officers were 
again downed in the line of duty.
    Our vigorous eradication and interdiction efforts, along 
with incentives for coca growers to switch to legal crops are 
clearly working. We, indeed, have been able to dramatically 
reduce vigorous coca production. Now we must finish the job.
    In his request for supplemental aid for the Andean 
countries, President Clinton proposed $18 million in assistance 
for Bolivia for the years 2000 and 2001. We greatly appreciate 
the administration's recognition that our partnership with the 
United States requires additional resources. At the same time, 
even the General Accounting Office of the U.S. Government 
concluded in its February 18th report that the Andean 
government continued to lack the resources and capabilities 
necessary to perform effect counter-narcotic operations.
    To complete, and make permanent, the gains of the Dignity 
Plan, Bolivia estimates a need of $111.5 million for fiscal 
year----
    Senator McConnell. If I could interrupt on that point, Mr. 
Minister, just like I did the Attorney General. Is it your view 
that this package that we are currently having the hearing on, 
is not sufficiently regional in nature and would it be your 
view that it would be more successful if greater assistance 
were provided to Bolivia and to Ecuador?
    Minister Antezana. Ecuador? Yes. It is true. We can work 
together with--all the countries of the Andean region. Of 
course. Yes.
    Senator McConnell. In other words, the current amount for 
Bolivia is not adequate for you to finish the job?
    Minister Antezana. No. It's not sufficient.
    Senator McConnell. OK. Go right ahead. I'm sorry.
    Minister Antezana. Bolivia estimates a need of $111.5 
million for fiscal year 2000, and $106.5 million for fiscal 
year 2001. As part of the regular budget, the United States has 
already provided $48 million to Bolivia in fiscal year 2000, 
and proposed $52 million for fiscal year 2001. This means that 
there is a shortfall of at least $50 million each year. In the 
strongest terms possible, we respectfully request that Congress 
consider increasing the money set for Bolivia in the 
supplemental aid package for a total of $50 million per year.
    The bulk of these funds will be used in alternative 
development projects and balance of payments. Integrating coca 
farmers into the legal economy is the most urgent priority for 
Bolivia's counter-narcotics efforts. If the government is not 
able to give an answer to more than 38,000 families that will 
be displaced as a result of the counter-narcotics strategy, 
there is a danger of serious backsliding on the immense 
progress to date. Already the dramatic reduction of coca 
availability has quadrupled the price of the leaf in only one 
year.
    The farmers of the Chapare region are just beginning to 
enjoy the promise of a sustainable legal economy. There are 
already 105,000 examples of legal substitute crops, but much 
remains to be done and achieved. The next 2 years are crucial.
    The key to our sustained success in eradicating illegal 
coca crops is tangible progress and development, new sources of 
legal products.
    If the assistance proposed for Bolivian, the package is not 
proportionate to the success in eradication that we have 
achieved, there will be enormous pressure on Bolivians to 
return to illicit coca production.
    With current resources, we are not able to thwart such 
pressure. We are not asking for open-ended assistance, but we 
disparately need the amounts we requested for the next 2 years 
to complete our goal. Then Bolivia and the United States can 
raise our hands together as we celebrate complete victory 
against drug trafficking.
    I would like to submit, for the record, a short detailing 
of the funding request for Bolivia for the next 2 years. I am 
now open to any questions you or any members of this committee 
might have on this issue.
    Thank you very much, Mr. Chairman.
    Senator McConnell. Thank you, Mr. Minister. We will put 
your additional material in the record.
    [The information follows:]
          Dignity Plan Supplemental Assistance Funding Request

                                   FISCAL YEAR 2000 SUPPLEMENTAL FUNDING NEEDS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   U.S. regular    Supplemental        Total
                             Program                                  funding       requirement     assistance
----------------------------------------------------------------------------------------------------------------
Alternative development.........................................            14.0            53.0            67.0
Prevention and justice..........................................             2.8  ..............             2.8
Eradication.....................................................             4.5             8.5            13.0
Interdiction....................................................            24.0             2.0            26.0
Others..........................................................             2.7  ..............             2.7
                                                                 -----------------------------------------------
      Total.....................................................            48.0            63.5           111.5
----------------------------------------------------------------------------------------------------------------

                        [In millions of dollars]

                                                            Share within
                                                            supplemental
                                                             requirement

Alternative development:
    Projects:
        Chapare-Yungas Social and Productive Infrastructure.......   7.0
        Assistance Production Fund................................   4.0
        Investment and Credit for Rural Enterprises...............   5.0
        Assistance for Agrarian Production........................   8.0
        Technical Assistance Fund.................................   3.0
                                                                  ______
          Subtotal................................................  27.0
                        =================================================================
                        ________________________________________________
    Balance of payments:
        Community Compensation....................................  10.0
        Alternative Development Activities USAID..................  10.7
        Road Infrastructure.......................................   5.3
                                                                  ______
          Subtotal................................................  26.0
                        =================================================================
                        ________________________________________________
          Total...................................................  53.0
                        =================================================================
                        ________________________________________________
Eradication:
    Assistance for Eradication: Personnel and equipment for DIRECO   7.0
    Investment: Equipment, infrastructure and topographic material 
      for DIRECO..................................................   1.1
    Institutional Strengthening Projects..........................   0.2
    Public Awareness Campaigns....................................   0.2
                                                                  ______
      Total.......................................................   8.5
                        =================================================================
                        ________________________________________________
Interdiction:
    UMOPAR--Border Security.......................................   1.1
    Canine Program................................................   0.3
    Communications Unit...........................................   0.6
                                                                  ______
      Total.......................................................   2.0

                                 FISCAL YEAR 2001 SUPPLEMENTAL FUNDING NEEDS \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   U.S. regular    Supplemental        Total
                             Program                                  funding       requirement     assistance
----------------------------------------------------------------------------------------------------------------
Alternative development.........................................            14.0            50.0            64.0
Prevention and justice..........................................             2.8  ..............             2.8
Eradication.....................................................             4.5             7.5            12.0
Interdiction....................................................            24.0             1.0            25.0
Others..........................................................             2.7  ..............             2.7
                                                                 -----------------------------------------------
      Total.....................................................            48.0            58.5           106.5
----------------------------------------------------------------------------------------------------------------
\1\ INL requested $52 million of regular funding for fiscal year 2001; if approved, then Bolivia's supplemental
  requirement would be $54.5 million, instead of the $58.5 million quoted in the chart.

                        [In millions of dollars]

                                                            Share within
                                                            supplemental
                                                             requirement

Alternative development:
    Projects:
        Chapare-Yungas Social and Productive Infrastructure.............
        Assistance Production Fund......................................
        Investment and Credit for Rural Enterprises.....................
        Assistance for Agrarian Production..............................
        Technical Assistance Fund.......................................
                                                                  ______
          Subtotal................................................  24.0
                        =================================================================
                        ________________________________________________
    Balance of payments:
        Community Compensation..........................................
        Alternative Development Activities USAID........................
        Road Infrastructure.............................................
                                                                  ______
          Subtotal................................................  26.0
                        =================================================================
                        ________________________________________________
          Total...................................................  50.0
                        =================================================================
                        ________________________________________________
Eradication:
    Assistance for Eradication: Personnel and equipment for ............
    Investment: Equipment, infrastructure and topographic material 
      for DIRECO........................................................
    Institutional Strengthening Projects................................
    Public Awareness Campaigns..........................................
                                                                  ______
      Total.............................................................
                        =================================================================
                        ________________________________________________
Interdiction:
    UMOPAR--Border Security.............................................
    Canine Program......................................................
    Communications Unit.................................................
                                                                  ______
      Total.............................................................

    Senator McConnell. I have just a couple of questions. 
First, with regard to Ecuador, Mr. Attorney General.
    Attorney General Jimenez. Mr. Chairman.
    Senator McConnell. Thanks. First, how successful is your 
judicial system in prosecuting and incarcerating if found 
guilty these drug traffickers that you find in your courts?
    Attorney General Jimenez. Well, we are doing a lot of 
effort in bettering the judicial system of Ecuador. There are 
many, many problems in the judicial system. It is not perfect. 
Nothing is perfect in the world, except in heaven.
    But institutions, non-government and non-profit 
organizations of the world are working very hard. For instance, 
the world bank in bettering the judicial system of Ecuador.
    We have an agreement between the judicial power of Ecuador 
and the so-called pro justicia, pro justice organization which 
is sponsored by the world bank. And we are doing a great 
effort. I would say we are not completely successful, but we 
are working towards being successful.
    Senator McConnell. One other question. You, of course, 
mentioned the transit problem through your country, and I am 
curious as to how active efforts are to monitor airports, 
seaports and roads in Ecuador to deal with this transit 
problem.
    Attorney General Jimenez. Well, we try to be as efficient 
as we can, but unfortunately we do not count on the necessary 
elements, material elements to do it. That is where we need 
more assistance.
    One more word, Mr. Chairman, just one word. One of the big 
efforts of the government of Ecuador is the national anti-drug 
plan, 1999, 2003, which was approved last year and which has 
had the endorsement of UNCDP, seek out from the Organization of 
American States and many other international organizations.
    And one more effort, which has been very, very important is 
this I have here, the agreement of the National Congress, the 
agreement of the National Government of Ecuador with the United 
States Air Force for the Manta Air Base which is working very 
well.
    And people are very happy to have the air base there, 
because there is more work today in the Manave Province where 
they needed a lot of work. So, there are efforts that are being 
made, but we need assistance. Thank you.
    Senator McConnell. Thank you. Just one final. Senator Leahy 
is going to handle the final witness who is going to be 
discussing details from today's front page Washington Post 
story, but I want to conclude my part of the hearing by asking 
the minister from Bolivia, even though I know agriculture is 
your portfolio and not justice. I'm also curious, if you know, 
how successful you have been in Bolivia in arresting and 
incarcerating drug traffickers.
    Minister Antezana. Well, we have good results. This is a 
matter that I do not know. I do not know except the number of 
people, because I have my responsibility in the area of world 
development and alternative development----
    Senator McConnell. Right.
    Minister Antezana (continuing). In eradication. But in the 
last year, I think we catch around 40 tons of the cocaine in 
Bolivia, and many, many people were arrested. I do not know 
exactly the number.
    Senator McConnell. Let me just conclude by saying to both 
of you how much I appreciate your being here, and also I want 
to make an observation to the minister of agriculture from 
Bolivia, because I understand the problem of agricultural 
transition.
    The most unpopular thing you can do in America, that is 
legal, is smoke a cigarette. I used to have 100,000 tobacco 
growers in my State. We have lost about 25 percent of them 
since President Clinton came to office, and it is dropping 
daily because of the effort to crack down on cigarette smoking 
in our country.
    Regretfully, in the Appalachian Mountains, the most 
profitable thing you can do is grow marijuana. And so we have 
our ongoing efforts in my State to discourage this kind of 
illegal activity. The root cause of the problem, of course, is 
the profitability of the plant.
    So, I want to particularly commend Bolivia for the 
extraordinary success that you have had in a really tough area. 
It is very, very difficult to, with rural people who are 
otherwise rather poor, to discourage this kind of activity when 
it is so lucrative. So, my hat is off. I salute you for the 
extraordinary success you have had in Bolivia. I hope you can 
keep it up, and I hope you can meet the eradication date of 
2002.
    So, with that, Senator Leahy is going to handle our last 
witness, and I am sure his stomach is growling intensely. But 
if he will hold on, Senator Leahy will be here momentarily I am 
told.
    I want to thank you, Mr. Attorney General and you, Mr. 
Minister, for joining us today, and let me just say that I 
share your view that we ought to take a more regional approach 
to the request of the Clinton Administration.
    And I am hopeful that our final product, which we send down 
to the President, will more accurately meet the needs that you 
have expressed here. And there, as if on cue, Senator Leahy 
arrives to handle our last witness. Thank you both very much.
    Attorney General Jimenez. Thank you, Mr. Chairman.
    Senator McConnell. You are up.
    Senator Leahy [presiding]. If I have any questions of these 
witnesses, I will put them in the record, but thank you all for 
being here.
    Attorney General Jimenez. Thank you.
    Senator Leahy. Why don't we have the next witness come 
forward, please. Ms. Kirk, I am delighted to have you here. You 
and Human Rights Watch have been referred to on more than one 
occasion today, as I do not need to tell you. Why don't you go 
ahead.
STATEMENT OF ROBIN KIRK, AMERICAS DIVISION, HUMAN 
            RIGHTS WATCH
    Ms. Kirk. Well, thank you very much.
    Senator Leahy. I know you have waited a long time for this.
    Ms. Kirk. It has been very interesting. First, I want to 
thank the subcommittee for inviting me, Chairman McConnell, 
Senator Leahy. It is a pleasure to come here and talk with you 
about the proposed aid plan to Colombia. I have a written 
statement that I have submitted for the record, but I would 
like to just comment briefly on a couple of things that have 
been said today during this hearing.
    I think I would like to make it very clear that I agree 
that Colombia is a matter of serious concern, not only for the 
United States, but also for the international community. We 
believe that this policy needs to be scrutinized very 
carefully, and it needs to be scrutinized based on the facts. 
And that is what I would like to discuss today.
    I would like to comment on a couple of things that were 
said earlier today in the testimony. Three basic points. Number 
one, this idea that human rights problems in Colombia, and 
specifically the relationship between the military and 
paramilitary groups, are simply the result of some bad apples. 
General Wilhelm used the phrase local collusion with 
paramilitary groups.
    With a great deal of respect to the General, I would simply 
like to say that that is not supported by the facts. We 
released a report yesterday that shows that far from local 
collusion, what we were able to document is continuing ties 
between the military and paramilitary groups, and specifically, 
ties that go right through the whole structure of the army.
    We were able to document ties between paramilitaries and 
the military in half of the 18 brigades that now function 
within the Colombian army. This is not history, this is 
reality. This is present day.
    It is clear that President Pastrana has made a commitment 
to human rights. He has made that commitment to us in meetings. 
Ambassador Moreno has also made the same commitments. We 
understand that there is a will, at least in terms of what 
Colombian officials will say, to do more for human rights. But 
what we do not see are actions on the ground.
    There are two things that have been cited as proof that the 
Colombian government has made progress in combating these ties 
between the military and paramilitary groups, and specifically 
military involvement in abuses. Ambassador Pickering mentioned 
the question of statistics.
    That, in fact, the number of human rights violations that 
are directly attributable to the army, to the military in 
general, have decreased in recent years. That is absolutely 
correct.
    We would agree that direct ties between the military and 
human rights violations have decreased, but that does take into 
account the whole question of open collaboration, collusion and 
support for paramilitary groups. There are no statistics that 
measure that. What there are are cases. The kinds of cases that 
we included in our report that show that this collusion, this 
collaboration, and indeed even an open creation of paramilitary 
groups, continues to occur in Colombia.
    In our report, we looked into the behavior of three 
brigades, and I think it is important to note that those three 
brigades are based in Colombia's largest cities. We are not 
talking about brigades that are in rural areas. We are not 
talking about far away places. We are talking about the capital 
of Colombia, Bogota. We are talking about Medellin and we are 
talking about Cali.
    This is far from something that is out there in the woods 
that cannot be controlled or cannot be supervised. This is 
happening in the heart of the Colombian army.
    Secondly, both Ambassador Pickering and Ambassador Moreno 
cited our report and said that it was actually a good sign for 
the Colombian government and its progress on human rights, 
because much of our information was based on the work of 
Colombia's own investigators. Prosecutors who work for the 
Attorney General's Office.
    But I would like to point out that many of those 
investigators have been threatened because of their work, and 
have been forced to leave Colombia. There is not an effort on 
the part of the Colombian government to protect them.
    Secondly, I would like to comment on the question of 
conditions. We welcome statements that have been made by the 
Colombian government that they will support human rights, but I 
think it is key to match will with measurable benchmarks that 
the United States can use to see exactly what the facts are on 
the ground. We cannot simply be satisfied with expressions of 
good will. We have to be able to match that with real progress.
    I have covered Colombia now since 1992, and every year we 
get expressions of good will. Every year we get intentions, but 
those intentions are not backed up by real progress on human 
rights. Let me just cite one example. I think it is especially 
appropriate for this hearing, because it has to do with the 
case of a Colombian senator.
    This Colombian senator, Manuel Sepeda was murdered in 1994 
in the capital of Colombia, in Bogota. And the investigation 
done by the Attorney General's Office showed that this murder 
had been carried out by the military, by military officers, in 
collusion with paramilitary groups.
    Until Human Rights Watch protested the fact that these 
officers remained on active duty only 3 months ago, those 
officers continued on the payroll of the Colombian army and 
also continued in working in military intelligence. And it was 
only until we protested that, in fact, the investigation showed 
that these Colombian army officers had killed a Colombian 
senator. It was only then that these two individuals were 
discharged from the army. That is the kind of progress----
    Senator Leahy. What else happened?
    Ms. Kirk. Well, now they are put at the disposition of a 
civilian court, but the fact is that they remained on active 
duty. They remained on the payroll until this became public.
    Senator Leahy. Are they before the civilian courts now?
    Ms. Kirk. They are before the civilian courts, but let me 
just say that these two individuals are low ranking officers. 
They are at the sergeant level and what we have seen again and 
again is that the Colombian government will cite statistics of 
officers sent to civilian courts for trial and those officers 
are almost always privates or sergeants.
    Senator Leahy. Do you remember what the rank was of these 
two?
    Ms. Kirk. They were both sergeants.
    Senator Leahy. And was anybody else either sent to military 
courts or suspended as a result?
    Ms. Kirk. In this particular case, these officers told 
investigators that they were acting under the orders of a 
general, who at that time was the head of the ninth brigade, 
and that general actually died of a heart attack in 1996. So, 
the case stopped investigating him at that point. But it is 
clear that there was, it was not just the actions of these 
sergeants, it was clear that they were acting on orders from 
their commanding officer.
    Senator Leahy. I note that Human Rights Watch is well-
respected and that your work has been widely quoted, by both 
Democrats and Republicans.
    I understand that yesterday, on a Colombian radio broadcast 
General Tapias accused Human Rights Watch of conspiring with 
drug traffickers to defame the Army. Would you respond to that?
    Ms. Kirk. Well, I think----
    Senator Leahy. Because you know I raised this question 
earlier.
    Ms. Kirk. Yes. No. Thank you for raising it. I think it 
speaks for itself. Because they do not attack us on the facts. 
They try to suggest that we are acting for other motives other 
than simply documenting the truth, but they never question our 
facts. And I think that, I would like that to speak for itself.
    Senator Leahy. When you work in Colombia, what type of 
freedom do you have to operate? You are down there 
investigating gross human rights violations. I can think of 
other countries in Central and South America where people have 
been killed for doing similar work. Is this a concern for Human 
Rights Watch?
    Ms. Kirk. Well, I think it is mainly a concern because of 
our Colombian colleagues, because we consider Colombia the most 
dangerous country in the world now for human rights defenders. 
Luckily, people like myself, who work for international 
organizations, have not lost anyone, but we have lost many of 
our Colombian colleagues. And in fact, Monday is the 
anniversary of the date of the murder of one of the human 
rights defenders that I worked most closely with in Colombia, 
Jesus Valle.
    So, we are extremely concerned about the safety of our 
colleagues in Colombia, and their ability to do just the kind 
of work that is needed to document continuing human rights 
abuses in the country. We do face a serious problem, because 
these human rights workers continue to receive threats, and 
continue to feel that they jeopardize their lives, especially 
when they speak publicly. I feel very fortunate, myself, to be 
able to speak publicly here without being afraid when I walk 
out of the room. I am afraid that my Colombian colleagues, with 
all due respect to the Colombian ambassador, do not feel the 
same freedom.
    Senator Leahy. You heard Ambassador Pickering mention the 
work the Army is doing to purge itself of human rights 
violators. Some have noted the dismissal of 15 officers as a 
sign of progress. How would you respond to that, is that a real 
sign of progress?
    Ms. Kirk. I think we were looking at that figure the other 
day, 15 officers, and the only way we could kind of account for 
each of the officers was to go back as far as 1990 to find 
exactly who they meant by being discharged. So, in other words, 
in the past 10 years, 15 officers have been discharged. Most of 
them simply discharged.
    In other words, not prosecuted for the human rights abuses 
that they have been accused of doing. So, no, we do not see 
that as a sign of great progress. Certainly it is welcome when 
officers who commit human rights violations are discharged, but 
we also want to see them prosecuted.
    Senator Leahy. How does that contrast with the National 
Police?
    Ms. Kirk. That is an important contrast, I think, because, 
for instance, since General Serrano took charge of the 
Colombian police in 1994, he has discharged an average of 1,000 
officers every year. That is for human rights violations, but 
also because of corruption and other criminal activity.
    But I think it is clear the lesson that we take from that 
is, number one, it is possible when there is political will to 
make great advances on human rights. And second, that is it 
possible in Colombia if the Colombian government and the 
commanders of the army and the navy and the air force decide to 
apply the same kinds of measures that General Serrano has done 
within the police.
    Senator Leahy. But I am told that prosecutors, 
investigators, human rights monitors and others have had to 
flee Colombia, even today, because of concern for their own 
safety. Is that your understanding?
    Ms. Kirk. That is correct. And it is very disturbing to us. 
Just at the time when, especially the United States, wants to 
have this aid monitored and wants to be able to collect the 
human rights information that it needs, for instance, to apply 
the Leahy Amendment, to find that even the government's own 
investigators, the people in the Attorney General's Office that 
we depend on to forward these cases, are having to flee the 
country.
    And in fact, much of the information that we collected for 
this report was taken from prosecutors who are out of Colombia 
and who wanted, because they are committed to their jobs and 
committed to doing their duty, they wanted to see some 
accountability.
    And unfortunately, their only recourse was to go to 
international organizations like Human Rights Watch and see if 
they could not, by talking to us about their cases, forward 
them within the Colombian judicial system, because most of 
these cases that are summarized in this report are stopped. Are 
essentially frozen, because the prosecutors who were 
shepherding them through the judicial system have had to flee 
the country.
    Senator Leahy. Is the Colombian Attorney General's Office 
the major source of your information?
    Ms. Kirk. We match our interviews with Colombian 
prosecutors with our own interviews with eyewitnesses and other 
information that we have collected from victims of violations.
    Senator Leahy. I want to make sure I fully understand this. 
You have spoken about General Serrano. You spoke about the 
National Police and what they have done. Are you suggesting 
that if the will was there, the same could be done in the 
military?
    Ms. Kirk. I think that is unquestionable. That the military 
can take measures today that would begin to produce real 
results in terms of human rights protections. One of them is 
simply purging officers that have a proven record of support 
for paramilitary groups.
    One of the things that you will note from our report is 
that many of the officers who were in charge of these units 
that we have tied to paramilitary activity, not only remain on 
active service, but have been promoted. In essence, rewarded 
for their collusion with paramilitary groups.
    That is something that I think would be very evident to 
General Tapias if he decided to appoint a review committee. 
That is one of the conditions that we are supporting. To have 
an outside review committee look at some of these cases and see 
who is it that really needs to be out of uniform.
    Senator Leahy. And so to anticipate questions, would it be 
naive to suggest that the Army take this on while fighting the 
guerrillas? Does it diminish their ability to fight? Does it 
make any difference in their ability to protect the nation?
    Ms. Kirk. I think to the contrary. It would strengthen 
their fight against guerrillas, because it is clear that the 
Colombian military has a duty, an obligation, to protect the 
nation. Has a duty to fight threats against Colombian 
democracy. There is no question about that. But the only way 
they can protect democracy is by observing democracy, and 
observing the rule of law.
    When the government itself, through its military, violates 
law, violates the rule of law by committing human rights 
violations, they lose credibility. And I think that they would 
be a stronger army, they would be more effective at defending 
Colombia if they, themselves, obeyed the law.
    Senator Leahy. Thank you, Ms. Kirk. We will put your full 
statement in the record.
    [The statement follows:]

                    Prepared Statement of Robin Kirk

    Chairman McConnell, Senator Leahy, Members of the 
Subcommittee: Thank you for inviting me to convey to the 
Subcommittee our concerns about the human rights implications 
of U.S. security assistance to Colombia.
    I would like to thank the Subcommittee for taking the time 
to examine in detail the proposed aid package to the Andean 
countries and specifically Colombia.
    No one disagrees that Colombia faces a difficult challenge. 
A decades-long war and entrenched drug trafficking have exacted 
a high toll. Human Rights Watch has fully documented the 
abusive behavior of Colombia's guerrillas, who kill, kidnap, 
and extort money from the population they claim to represent.
    At the same time, however, forces from within the state 
itself threaten democracy. Paramilitary groups operating with 
the acquiescence or open support of the military account for 
most political violence in Colombia today. Yet Colombia's 
military leaders have yet to take the firm, clear steps 
necessary to purge human rights abusers from their ranks.
    This is not history, but today's reality. Human Rights 
Watch has detailed, abundant, and compelling evidence of 
continuing ties between the Colombian Army and paramilitary 
groups responsible for gross human rights violations, which we 
have submitted to this Subcommittee. Our information implicates 
Colombian Army brigades operating in Colombia's three largest 
cities, including the capital, Bogota.
    Together, evidence collected so far by Human Rights Watch 
links half of Colombia's eighteen brigade-level army units to 
paramilitary activity. In other words, military support for 
paramilitaries remains national in scope and includes areas 
where units receiving or scheduled to receive U.S. military aid 
operate.
    For that reason, it is crucial for the Congress to place 
strict conditions on all security assistance to Colombia to 
ensure that the Colombian Government severs links, at all 
levels, between the Colombian military and paramilitary groups 
and prosecutes in civilian courts those who violate human 
rights or support or work with paramilitaries.
    I have submitted for the record additional recommendations 
for actions that Human Rights Watch believes the U.S. should 
require the Colombian Government to take before receiving 
security assistance.
    The 28th of February marks the two-year anniversary of the 
murder of Jesus Valle, a courageous human rights defender 
gunned down in his Medell'n office precisely because he worked 
to document links between paramilitaries and the Colombian 
Army. The gunmen paid to kill him are in prison. But the 
individuals who planned and paid for his murder remain at 
large.
    Even the government's own investigators are under threat. 
Dozens of prosecutors who have worked on these cases have been 
forced to flee Colombia because of death threats. In 1998 and 
1999, several investigators who worked for the Attorney General 
were murdered because of their work on human rights-related 
cases.
    The United States has a positive message to send Colombia 
and should respond to President Pastrana's call for help. But I 
urge the members of this Subcommittee to recognize that 
continued collusion between Colombia's military and 
paramilitary groups will only undermine the effectiveness of 
the aid you send and sabotage efforts to rebuild democracy.
    Thank you. I would be pleased to answer any questions.

    Senator Leahy. And if there are other questions, we will 
provide that for the record.
    I am sorry you had to be here so long, but I hope you found 
this interesting. I had to go to the floor to get a couple of 
judges confirmed, and we did.
    Nevertheless, I was able to follow the hearing. I think it 
has been worthwhile, especially as the whole Appropriations 
Committee will have to consider the Administration's request.
    I have some real concerns. The Administration's plan has 
not been well thought out.
    It is too open ended. It guarantees that there will be U.S. 
troops involved, at least indirectly, in Colombia.

                         conclusion of hearing

    Ms. Kirk, I appreciate you taking the time. I think you 
have helped us with our deliberations.
    Ms. Kirk. Thank you very much.
    [Whereupon, at 1:37 p.m., Thursday, February 24, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
